<html>
<title> - REGIONAL IMPACT OF THE SYRIA CONFLICT: SYRIA, TURKEY AND IRAQ</title>
<body><pre>[Senate Hearing 114-689]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-689
 
           REGIONAL IMPACT OF THE SYRIA CONFLICT: SYRIA, TURKEY 
                                AND IRAQ

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                          SEPTEMBER 29, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov
                        
                        
                        
                        
                        
                        
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-911 PDF             WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                        
                        
                        
                        
                        


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3

Blinken, Hon. Antony J., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     5
    Prepared statement...........................................     8
    Responses to Questions for the Record Submitted to Deputy 
      Secretary Blinken by Senator Rubio.........................    26
    Responses to Questions for the Record Submitted to Deputy 
      Secretary Blinken by Senator Perdue........................    30




                             (iii)        

  


     REGIONAL IMPACT OF THE SYRIA CONFLICT: SYRIA, TURKEY AND IRAQ

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Isakson, 
Cardin, Menendez, Shaheen, Murphy, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    We welcome our Deputy Secretary of State, Tony Blinken. I 
know he was in Turkey until yesterday evening, and we moved the 
hearing back a day.
    I would note that we have been trying to get Secretary 
Kerry in here for some time. That has not been possible. I do 
not want to diminish your appearance, because we are thankful 
to have you here. But I think for obvious reasons, he has not 
been willing to come.
    I think the focus of today's hearing will be Syria. I do 
not think anyone here can be proud of the United States' role 
in the greatest humanitarian disaster of our time and what we 
have done to enable that to happen.
    As I think about your appearance here today, I think in 
many ways it will be helpful to us as we think about the next 
administration, the next Secretary of State, the relationship 
that needs to exist between the executive branch and the 
Secretary of State's office. I know that you came over from the 
National Security staff, so you were at the White House. Then 
you moved to the State Department. I know sometimes executive 
branch folks like to have their own people at the State 
Department, and I know, for instance, you were to appear here 
yesterday but the President ordered you to Turkey instead. So 
it speaks to sort of the overlap that sometimes exists between 
the executive branch and the Department of State.
    As an observation, the entire Syrian conflict is again 
something that we are not proud of. I do not think anybody here 
is proud of it. Even though I think they would view the Obama 
administration's foreign policy, generally speaking, as a 
failure, It is interesting that Secretary Clinton has received 
support from the foreign policy establishment because I think 
it is so well known that she tried to counter so much of what 
happened and what has lessened our standing in the world. And I 
think that is the reason that many people have migrated in the 
foreign policy establishment to her and are now supporting her. 
I think all of us are aware of her trying to counter what 
happened in Iraq, trying to do more to support the rebels. I 
think that is just widely known.
    What is interesting to me, is Secretary Kerry. He came in 
with a lot of excitement. I mean, people thought he lived his 
whole life, if you will, to be Secretary of State. Even as a 
young person, he was involved in foreign policy. He fought in 
Vietnam and made his name, if you will, on the stage here as a 
young man. But after what has happened in Syria and what 
happened in Iraq, that moved--feelings by many--certainly by 
me--to anger. To now, we had a breakfast with him just a week 
and a half ago, and to me he has become a somewhat sympathetic 
figure in that he is out there trying to deal with, for 
instance, the situation in Syria. And yet there is no Plan B. 
There is no support from the White House.
    We have had General Allen here--we knew in March of 2015--
who was on Secretary Kerry's behalf working hard to create a 
no-fly zone, and talking openly about it. Turkey was supporting 
that. And yet there was no decision from the White House.
    The clearest example of why our foreign policy has been 
such a failure was this weekend. Ben and I were trying to set 
up a meeting to try to deal with the issue of JASTA, to try to 
come to some other option that might create an outlet for the 
victims of 9/11 and yet not undermine some of our sovereign 
immunity issues. I know I have been talking to the White House 
for some time just trying to get them to engage with us. Over 
the weekend, I talked to Secretary Kerry twice, and we agreed 
the best way to resolve this was to have a meeting, a meeting 
with Chuck Schumer, a meeting with John Cornyn, a meeting with 
Ben and myself, a meeting with Senator Reid and Senator 
McConnell. Just to sit down and see if another option could be 
developed that might cause us to move in a direction that would 
create an outlet for the people of 9/11 and yet not to have 
some of the adverse consequences that some of us fear.
    Secretary Kerry could not even get the White House to call 
a meeting. Let me say that one more time. The outburst 
yesterday from the White House over what happened is remarkable 
when they would not even sit down to meet with the Secretary of 
State and members of the Senate to try to create a solution to 
a problem that they felt was real.
    So I have to tell you--I know all of you guys write books 
after you leave. I think it is going to be a fascinating walk 
through what I believe to be a failed presidency as it relates 
to foreign policy. There has been an unwillingness to roll up 
sleeves and deal with tough issues, and certainly there is no 
way to deal with them without conversation--and then to not 
have a Plan B, where the diplomatic actions cannot be backed up 
because Russia and Assad realize that there is no Plan B. Never 
has been a Plan B.
    So I look forward to your testimony. I know I am being a 
little tough on you today, but I think it is in response to 
just seeing again why this failure has occurred, and that is 
the White House's inability to sit down, to get involved, to be 
willing to put forth tough consequences when things do not 
occur. Again, there could not be more evidence of that than the 
unwillingness to even sit down and try to propose another way 
of dealing with the situation we dealt with yesterday on the 
Senate floor.
    So with that, I turn to my good friend, Senator Cardin, and 
look forward to his opening comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman.
    Secretary Blinken, thank you for being here.
    Chairman Corker and I have been partners during most of 
this Congress on this committee, and we share very similar 
views about foreign policy and priorities. And we have had an 
opportunity to work together on many, many issues.
    As I was listening to Senator Corker, at the beginning of 
his comments, I thought we were going to be able to continue 
that with his nice comments about Secretary Clinton because I 
share those views on Secretary Clinton's extraordinary talent 
to conduct foreign policy.
    And I share Senator Corker's frustration on JASTA. I think 
that was highlighted through circumstances that neither he nor 
I could control, nor could the administration control, and that 
is, that the timing of JASTA required us to take the veto 
override before the recess. I think if we could have had that 
veto override during the lame duck session, we would have had 
more opportunity to explore ways in which we could try to 
accomplish the needed removal of sovereign immunity that stands 
in the path of the victims of 9/11 but do it in a way that does 
not cause the risk factors that this legislation causes.
    And neither Senator Corker nor I and, quite frankly, the 
leadership or the President could affect that timing because 
the President had to act with a certain number of days, the 
Congress was required to take up the veto message immediately 
unless we had unanimous consent, which was unlikely to be able 
to be gotten. So I think it put us in a position where options 
were not as robust as I would have liked them to have been and 
that included the President's option.
    So I am not as critical as Senator Corker of this 
administration or Secretary Kerry. I know Secretary Kerry felt 
pretty passionately about the JASTA legislation. He expressed 
his views. I had a chance to be with Secretary Kerry on a plane 
for a considerable period of time, and he used that opportunity 
to explore every opportunity we had here to deal with JASTA. So 
I very much admire Secretary Kerry's optimism and his 
unrelenting pursuit of peace in every part of the world. And we 
had a chance to experience that firsthand in Colombia, as we 
saw after 5 decades of civil war, a peace agreement signed this 
past Monday, and I was proud to be there with Secretary Kerry.
    Secretary Blinken, welcome back to the Senate Foreign 
Relations Committee. It is not every day that we have a star 
from Sesame Street with us. For anyone who has not seen 
Secretary Blinken's guest appearance with Grover, I encourage 
you to watch him discuss refugees with everyone's favorite 
furry blue monster before the President's summit on refugees 
during the U.N. General Assembly session.
    We know that you have just returned from a trip to Turkey, 
and we look forward to learning about your discussions there 
given Turkey's critical role in the success of a counter-ISIL 
campaign, ending the conflict in Syria, and for broader 
regional ability.
    Charged with oversight of the State Department, the members 
of this committee have a fundamental interest in the success of 
U.S. diplomacy and U.S. leadership in the foreign policy arena. 
Secretary Kerry is correct in his belief that the tools of 
diplomacy should always be the preferred method for stopping 
violence, saving lives, and restoring stability.
    I want to commend the dedication of Secretary Kerry and 
yourself and our Nation's diplomats for the work you have done 
around the clock with both allies and adversaries to forge an 
agreement to end violence in Syria. That is what we need to do. 
There is no way to end that civil war through the use of 
military force. We need to be able to have a negotiated 
diplomatic solution where all sides respect a government that 
respects human rights.
    But now we are clearly at an inflection point. The U.S.-
Russia ceasefire agreement was based on the assumption that 
Russia could compel the Assad regime to ground its air force, 
that Russia would compel the Assad regime to allow immediate 
and unfettered humanitarian access. We have clearly seen that 
neither of these two objectives were achieved.
    Russia strives to be considered a peer, one that is 
essential to solving global problems, but I seriously question 
the reliability of Russia in this regard. We must reevaluate 
our approach to Russia in the Middle East and beyond the Middle 
East. Russia continues to attack Ukraine forces in Donbass. It 
illegally occupies Crimea. It has hacked into our computer 
system and sought to destabilize our electoral process. These 
are not the actions of a partner. These are the actions of an 
adversary, and I think we have to recognize that.
    With our focus on Russia, we cannot lose sight of Iran's 
nefarious role in Syria and beyond. We know that Iran is 
backing the Assad regime economically and militarily. IRGC 
commanders have died fighting in Syria. Iran has mobilized 
militia fighters, provided intelligence to support Syria and 
Russia in targeting, sent in lethal aid, and mobilized the 
Hezbollah. There must be consequences for these actions, and 
there are plenty of tools that we have at our disposal. I 
reject the utterly false narrative that Iran's and Russia's 
activities in Syria constitute counterterrorism.
    I look forward to hearing from you, Mr. Blinken, on what 
actions the United States is considering, what are our options, 
and how can Congress be your partner.
    Turning to Iraq just for a moment, if I might, the counter-
ISIL fight is just the first step in restoring stability. I am 
cautiously optimistic that the military operation to push ISIL 
out of Mosul is resourced and planned to achieve its goals. And 
beyond the military operations, I want to raise the alarm bell 
about winning the peace. I think we will win the war, but can 
we win the peace? Iraqi leaders in Baghdad must get their act 
together. The past few months of political infighting and mud-
throwing instilled no confidence that leaders in Baghdad, 
Irbil, and other provincial levels are prepared to put the 
Iraqi people first. We know that the Iraqi Security Forces, the 
Kurdish Peshmerga forces, and other forces cannot fight or bomb 
their way to a stable Iraq.
    What will come after ISIL's defeat?
    I am not confident that Iraqi leaders are sufficiently 
engaged to respond to the humanitarian crisis coming when 
hundreds of thousands of civilians flee Mosul. I am not 
confident that Iraqi leaders are effectively in control of the 
popular mobilization forces to prevent sectarian reprisal 
violence. I am not confident that Iraqi leaders are committed 
to recovering stabilization and governance plans that will give 
all Iraqis a stake in the peace.
    Weeks ago, I would have said the situation in the region, 
particularly Syria, could not be any worse. Now we know that it 
can. Russia is guilty of war crimes for bombing a humanitarian 
aid convoy. Assad is barrel bombing Aleppo with impunity and 
using water access as a weapon, as if denying humanitarian aid 
was not sufficiently deplorable. These are crimes against 
humanity. The longer the Assad regime remains entrenched in 
Damascus and the longer ISIL and the Al Nusra Front remain 
active in the region, the more depraved the situation becomes, 
the more hopeless are innocent civilians, the more susceptible 
are vulnerable populations to violent extremism, and the more 
strained are governments in Jordan and Lebanon to respond to 
these pressures.
    At risk is an entire generation of children in the region 
that have only known war and some governments that want to 
stand with them but have been unsuccessful. At risk is an 
entire generation of children who will only know refugee camps, 
who do not have access to clean water, health care, schools, 
and employment opportunities. This situation cannot continue. 
The U.S. must provide more decisive leadership to protect the 
civilian population.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Ranking Member, I appreciate your 
comments. I think this is what we have been saying since about 
2011.
    My comments about Secretary Kerry being a sympathetic 
figure are really not negative towards him. He is out there 
without the ability to do diplomacy because everyone knows 
there is no backup plan in the event that diplomacy fails, 
which is a recipe for disaster. We have known that now for 5 
years. So again, it was more of an indictment of the President 
than of our Secretary of State.
    But with that, our Deputy Secretary of State, Tony Blinken, 
who we appreciate being here today as a substitute, we thank 
you for your service, and we look forward to your abbreviated 
comments. Your written testimony, without objection, will be 
entered into the record.

STATEMENT OF HON. ANTONY J. BLINKEN, DEPUTY SECRETARY OF STATE, 
           U.S. DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Blinken. Mr. Chairman, thank you very much. Let me just 
start by thanking you personally, as well as the committee 
staff, for your courtesy in rescheduling this hearing to today. 
As you noted, it was originally going to be yesterday. I very 
much appreciate it. It did allow me to make this trip to 
Turkey, which I am happy to talk about.
    And Senator Cardin, thank you for referencing the best 
bilateral meeting I had during the week in New York at the U.N. 
General Assembly. My meeting with Grover was by far the most 
informative and interesting session.
    Mr. Chairman, Ranking Member Cardin, members of the 
committee, thank you for this opportunity to discuss the civil 
war in Syria and its regional implications.
    Now in its sixth year, the civil war has destroyed the 
fabric of life in Syria. It has killed at least 400,000 people, 
triggered the worst humanitarian displacement crisis since 
World War II, put neighboring countries of first asylum under 
enormous pressure, exacerbated regional tensions, helped swell 
the ranks of violent extremist organizations, most notably 
Daesh and Al Qaeda.
    The conflict continues to be fueled by patrons and proxies 
with very divergent interests and priorities at a time of 
unprecedented upheaval in the wider Middle East, as governments 
pursue new models of political rule and vie for regional 
influence. In short, the Syria conflict presents one of the 
most complex challenges we have faced.
    The United States is clear-eyed about our role and 
responsibility. The civil war in Syria is not about us, nor can 
it be solved solely by us. But it challenges our security and 
strategic interests and our moral values. So we are working to 
leverage our country's unique capacity to mobilize others to 
end the civil war and contend with its consequences, even as we 
lead the international coalition to counter and ultimately 
defeat Daesh. We are also working to facilitate aid to millions 
of Syrian civilians, both in Syria and outside of Syria, to try 
to reduce the human suffering the civil war has engendered.
    Our primary task is to defeat Daesh, which poses the most 
immediate threat to our citizens, to our country, to our allies 
and partners. We have built an international coalition with 67 
partners. We devised a comprehensive strategy to attack Daesh 
at its core in Iraq and Syria; dismantle its foreign fighter, 
financing, and recruitment networks; stop its external 
operations and confront its affiliates. We are aggressively 
implementing that strategy. And we are succeeding.
    Our comprehensive campaign is systematically liberating 
territory from Daesh and denying its sanctuaries, cutting off 
its financing, stemming the flow of foreign fighters, combating 
its narrative, allowing citizens to return home, gutting the 
twisted foundation on which Daesh's global ambitions rest.
    We have deprived Daesh of about 25 percent of the territory 
it once controlled in Syria and more than 50 percent of the 
territory it once controlled in Iraq.
    And we now face a moment of both strategic opportunity and 
urgency.
    The opportunity before us is to effectively eliminate 
Turkey's physical caliphate by taking back the last big pieces 
it holds: Mosul in Iraq and Raqqa and Dabiq in Syria. With 
support from the coalition, local forces are preparing to 
launch these operations in the period ahead. These battles will 
be hard, but the consequences to Daesh will be devastating, 
both practically and psychologically.
    But this opportunity is matched by urgency. As the noose 
around Daesh is tightening, we have seen them try to adapt by 
plotting or encouraging indiscriminate attacks in as many 
places as possible. This puts a premium on destroying Daesh's 
external operations network, especially in Raqqa where many of 
these operations are plotted, planned, and directed.
    In Iraq, Mr. Chairman, 2 weeks ago and then in Turkey this 
week, I held discussions with our partners on the campaign plan 
to liberate Mosul, Dabiq, and Raqqa. It requires extraordinary 
coordination not just militarily but also to ensure that we 
meet the humanitarian, stabilization, and governance needs of 
newly liberated territory. It will be this effort that ensures 
that Daesh, once defeated, stays defeated.
    And, Senator Cardin, I think you are exactly right that in 
a sense the harder questions are almost what follows the 
military defeat of Daesh in Iraq and certainly in Syria. 
Ultimately we will not fully succeed in destroying Daesh until 
we resolve the civil war in Syria, which remains a powerful 
magnet for foreign terrorist organizations that thrive in war's 
ungoverned spaces and draw strength from Assad's destruction of 
his own nation.
    The objectives and processes that we agreed to earlier this 
month with Russia were the right ones: a renewal of the 
cessation of hostilities, the immediate resumption of 
unhindered aid deliveries, the degradation of and focus on 
Daesh and Al Qaeda in Syria, the grounding of the Syrian air 
force over civilian populations, the beginning of a Syria-led 
negotiating track that can provide a pathway out of the 
conflict and make possible the restoration of a united, 
peaceful Syria.
    The actions of the Assad regime and Russia, aided and 
abetted by jihadist spoilers, now risk fundamentally 
undermining this initiative, destroying what was the best 
prospect for ending the civil war. The September 19 attack on 
the U.N. humanitarian aid convoy in Big Orem near Aleppo was 
unconscionable. It has been followed by the regime and Russia 
renewing a horrific offensive in Aleppo that includes the 
killing of hundreds of innocent civilians and apparently 
intentional attacks on hospitals, the water supply network, 
other civilian infrastructure.
    Yesterday, Mr. Chairman, Secretary Kerry informed the 
Foreign Minister of Russia that unless Russia takes immediate 
steps to end the assault on Aleppo and restore the cessation of 
hostilities, the United States will suspend U.S.-Russia 
bilateral engagement on Syria, including the establishment of 
the Joint Implementation Center. At President Obama's 
direction, we also are actively considering other options to 
advance our goal of ending the civil war and starting a 
political transition in Syria. We continue to maintain close 
links to the moderate opposition to support their viability.
    It is important, as always, to remember how this crisis in 
Syria began, not with barrel bombs or chlorine, but with 
peaceful protests of citizens who were calling for peaceful 
change. The humanitarian catastrophe that we bear witness to is 
a direct outgrowth of Assad's vengeance against his own people, 
and indeed, the cost is rising every day for the region, for 
Europe, most of all for the Syrian people.
    We will continue to work with the coalition we built to 
defeat Daesh, and we will explore and, as appropriate, pursue 
every option to end the civil war in Syria and bring about the 
political transition that the Syrian people want and deserve.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Blinken follows:]


                  Prepared Statement of Antony Blinken

                              introduction
    Chairman Corker, Ranking Member Cardin, members of the committee--
thank you for the opportunity to come before you today to discuss the 
civil war in Syria and its regional implications.
    Now in its sixth year, the crisis has destroyed the fabric of life 
in Syria, killed at least 400,000 people, triggered the worst human 
displacement crisis since the end of World War II, put neighboring 
countries of first asylum under enormous pressure, exacerbated regional 
tensions, and helped swell the ranks of violent extremist 
organizations, most notably Daesh and al-Qaeda.
    The conflict continues to be fueled by patrons and proxies with 
divergent interests and priorities at a time of unprecedented upheaval 
across the wider Middle East, as governments pursue new models of 
political rule and vie for new positions of regional influence. In 
short, the Syrian conflict presents one of the most complex challenges 
we have faced.
    There is no way to look at what is happening on the ground in Syria 
and not feel profound grief and horror. In the midst of such tragedy, 
it is tempting to want a neat answer that ends the civil war and eases 
suffering overnight. But the challenges before us defy silver bullet 
solutions.
    The United States is clear-eyed about our role and responsibility. 
The civil war in Syria is not about us, nor can it be solved solely by 
us. But it challenges our security and strategic interests--and moral 
values. So we are leveraging our country's unique capacity to mobilize 
others to end the civil war and contend with its consequences, even as 
we lead the international coalition to counter and ultimately defeat 
Daesh. We are also harnessing the power of diplomacy to facilitate aid 
to millions of Syrian civilians and reduce human suffering in any way 
that we can.
                            defeating daesh
    Our primary task is to defeat Daesh, which poses the most immediate 
threat to our citizens, our country, and our allies. We built an 
international coalition with 67 partners. We devised a comprehensive 
strategy to attack Daesh at its core in Iraq and Syria; dismantle its 
foreign fighter, financing and recruitment networks; stop its external 
operations and confront its affiliates. We are aggressively 
implementing that strategy. And we are succeeding.
    Two years ago, Daesh was expanding its territory, building its 
status online as an irresistible magnet for budding violent extremists, 
and threatening to overrun even Baghdad and Erbil.
    Today, momentum in the fight to defeat Daesh has shifted 
dramatically.
    Our comprehensive campaign is systematically liberating territory 
from Daesh and denying its sanctuaries, cutting off its financing, 
stemming the flow of foreign fighters, combatting its narrative on 
social media, allowing citizens to return home, and gutting the twisted 
foundation on which Daesh's global ambitions rest.
    Daesh has not had a major battlefield victory in well over a year. 
We've eliminated tens of thousands of fighters and more than one 
hundred mid-to-senior level leaders. We've destroyed thousands of 
pieces of equipment and weapons. We've deprived Daesh of about 25 
percent of the territory it once controlled in Syria and more than 50 
percent of the territory in Iraq.
    Now, we face a moment of strategic opportunity and urgency.
    The opportunity is to effectively eliminate Daesh's geographic 
caliphate by taking back the last big pieces it holds: Mosul in Iraq 
and Raqqa and Dabiq in Syria. With support from the coalition, local 
forces are preparing to launch these operations in the period ahead. It 
will not be easy. The enemy is dug in and desperate, but the 
consequences for Daesh will be devastating--practically and 
psychologically. It will lose critical havens from which to organize, 
plot and prosecute attacks. It will be deprived of critical resources 
that finance its activities. It will be denied key destinations for 
foreign fighter recruits. And it will lose the entire foundation of its 
narrative--the building of a physical caliphate.
    This opportunity is matched by urgency. As the noose around Daesh 
closes, we've seen them try to adapt by plotting or encouraging 
indiscriminate attacks in as many places as possible: a market in 
Baghdad, a nightclub in Orlando, a promenade in Nice, a cafe in Dhaka, 
a bustling airport in Istanbul. Potential recruits are being told to 
stay home and attack there. Surviving foreign fighters are being pushed 
out of Iraq and Syria and back to where they came from. This puts a 
premium on destroying Daesh's external operations network--especially 
in Raqqa, where many of these operations are plotted, planned, and 
directed.
    In Iraq two weeks ago and in Turkey this week, I held discussions 
with our partners on the campaign plan to liberate Mosul, Dabiq, and 
Raqqa. It requires extraordinary coordination not only militarily, but 
also to ensure that we meet the humanitarian, stabilization and 
governance needs of newly liberated territory.
    Moreover, the fight to hold ground, rebuild cities, restore 
services, clear schools and clinics of IEDs, care for displaced 
children, help families return home, hold Daesh accountable, provide 
genuine security, re-establish the rule of law--in other words, the 
fight to provide for the basic needs of a nation and prevent the 
emergence of Daesh 2.0 is only just beginning. The way we're doing 
this--working not only with a broad international coalition but also 
with local partners on the ground who know the territory and have a 
stake in stabilizing and governing it--helps ensure that Daesh's defeat 
will be sustainable and lasting.
    As Iraqi forces and humanitarian workers prepare for the liberation 
of Mosul, this task must be matched by steps towards inclusive 
political and economic progress. We strongly support Prime Minister 
Abadi's leadership on reform and reconciliation. He has begun critical 
outreach to Sunnis, announced ``zero tolerance'' for human rights 
abuses, and reached an agreement with the Kurds to restart oil exports 
from Kirkuk.
    All Iraqis--be they Sunni, Shia, Christian, Arab, or Kurd, or any 
other--have to be convinced that the state that they've been asked to 
fight for will stand up for their rights and their equities, that they 
can advance their interests more effectively as citizens of a united 
Iraq than as supplicants of other regional powers or members of 
isolated competitive blocs in a fractured and weakened state. It will 
be this effort that ensures that Daesh once defeated stays defeated.
                     responding to syrian civil war
    Ultimately, we will not succeed in fully destroying Daesh until we 
resolve the civil war in Syria, which remains a powerful magnet for 
foreign terrorist organizations that thrive in the war's ungoverned 
spaces and draw strength from Assad's brutal destruction of his own 
nation.
    We know from history and experience that civil wars end in one of 
three ways. First, one side wins. That is unlikely in Syria because as 
soon as one side gets the advantage, the outside patrons of the other 
side intensify their engagement to right the balance.
    Second, the parties exhaust themselves. Typically, that takes a 
decade--or longer when a multiplicity of actors are involved. The civil 
war in Syria is entering year six, and it features a broad array of 
internal and external actors with different priorities.
    Third and finally, civil wars end when external powers intervene 
either militarily or politically. But military intervention typically 
adds fuel to the fire, extending before ending the conflict and 
suffering. In the case of Syria, short of a wholesale invasion that no 
outside power has the interest to undertake, military intervention is 
not likely to be decisive. That leaves a political intervention, with 
key outside powers and patrons shaping, supporting and imposing a 
resolution. That is the effort we have been engaged in with Russia and 
other members of the International Syria Support Group, building on the 
foundation of the Geneva communiques and U.N. Security Council 
resolutions.
    The objectives and the processes we agreed to earlier this month 
were and are the right ones: a renewal of the cessation of hostilities, 
the immediate resumption of unhindered aid deliveries, the degradation 
of and focus on Daesh and Al-Qaeda in Syria, which is also known as 
Nusra, the grounding of the Syrian air force over civilian populations 
and the beginning of a Syrian-led negotiating track that can provide a 
pathway out of the conflict and make possible the restoration of a 
united and peaceful Syria. The United States, as Secretary Kerry has 
said, will make absolutely no apology for going the extra mile to try 
to stop the violence and ease the suffering of the Syrian people. It 
would be diplomatic malpractice to close the door on our larger goal of 
keeping alive the prospect of a political accommodation.
    Tragically, the actions of the Assad regime and Russia, aided and 
abetted by jihadist spoilers, now risk fatally undermining this 
initiative--destroying the best prospect for ending the civil war. The 
September 19 attack on a U.N. humanitarian aid convoy in Big Orem near 
Aleppo was unconscionable. It has been followed by the regime and 
Russia renewing a horrific offensive in Aleppo that includes the 
killing of hundreds of innocent civilians and apparently intentional 
attacks on hospitals, the water supply network, and other civilian 
infrastructure.
    Yesterday, Secretary Kerry informed the Foreign Minister of Russia 
that unless Russia takes immediate steps to end the assault on Aleppo 
and restore the cessation of hostilities, the United States will 
suspend U.S.-Russia bilateral engagement on Syria--including the 
establishment of the Joint Implementation Center. At President Obama's 
direction, we also are actively considering other options to advance 
our goal of ending the civil war and starting a political transition in 
Syria. We continue to maintain close links to the moderate opposition 
to support their viability.
                  responding to humanitarian disaster
    The humanitarian catastrophe is a direct outgrowth of Assad's 
vengeance against his own people, and the human and financial cost of 
the conflict rises every day--for the region, for Europe, but most of 
all, for Syrians.
    Eighty-one percent of Syria's population requires humanitarian 
assistance--6.5 million Syrians are displaced in their own country. And 
4.8 million Syrians have fled to neighboring countries--straining the 
capacity of generous host communities in Turkey, Lebanon, Jordan, Iraq, 
and Egypt.
    Across the region, more than three million children are out of 
school, and many of their parents do not have access to legal 
employment. As a result, refugees are putting themselves at risk and 
traveling farther and farther afield in pursuit of a hope shared by 
parents the world over: a better future for their children.
    The United States--as the world's leading humanitarian donor--has 
worked with heroic partners on the ground, including U.N. agencies and 
NGOs, to help strengthen the resilience of refugees as well as the 
communities that host them.
    Since the start of the crisis, we have provided over $5.9 billion 
in humanitarian aid to the response inside Syria and across the region, 
in addition to development assistance to Jordan and Lebanon, and we 
have worked with the World Bank to develop new types of affordable 
loans for middle-income countries grappling with protracted crises. We 
have provided nearly $1.1 billion in humanitarian assistance to Iraq 
since 2014--including a recent tranche of funding to preposition food 
supplies and basic relief items ahead of Mosul's liberation.
    Last week, President Obama convened 52 countries and international 
organizations for a summit during the U.N. General Assembly, where the 
nations made measurable commitments to increase humanitarian 
contributions by $4.5 billion; double the number of refugees who are 
offered resettlement or other legal forms of admissions; and increase 
the number of refugee children in school globally and refugee adults 
working by one million each.
    Galvanizing these resources is vital to helping shore up an 
international response system that, for all its extraordinary efforts, 
is overstretched, overburdened, and overwhelmed.
                               conclusion
    It is important, as always, to remember how the crisis in Syria 
began--not with barrel bombs and chlorine, but with peaceful protests 
of citizens calling for change.
    When nations squeeze out moderate voices, they create a vacuum 
filled by extremists. When people feel shut out, their sense of 
alienation and marginalization sharpens divisions that extremists love 
to exploit.
    That is why the United States is working for a settlement in Syria 
that will give people viable choices other than supporting Assad for 
fear of terrorists or terrorists for fear of Assad.
    That is why we support a peace process for Yemen that reunites the 
country rather than deepening sectarian divisions that have already 
left the nation vulnerable to exploitation by Al Qaeda in the Arabian 
Peninsula and Daesh.
    It is why we are supporting Prime Minister al-Sarraj's efforts to 
achieve national reconciliation and build a unity government that 
represents all Libyan people and unites them against Daesh. Under Prime 
Minister al-Sarraj's leadership, Libyan ground forces have made 
significant progress against Daesh in recent months. The United States 
responded to the Prime Minister's request for help in this effort, 
conducting over 170 counter-Daesh airstrikes under Operation Odyssey 
Lightning. Daesh now holds less than one square kilometer of Sirte's 
city center.
    It is why we have urged greater space for peaceful dissent in 
Egypt, as we offer assistance to increase Egypt's capabilities to 
counter a Daesh-affiliated insurgency in Sinai.
    It can be hard to look back on the events in this region in the 
last few years and feel a great deal of optimism. But we must persist, 
and we intend to work with the coalition we've built to defeat Daesh, 
end the civil war in Syria, and bring about the political transition 
that the Syrian people want.


    The Chairman. Thank you, Mr. Secretary.
    I am just going to ask one question and then may interject 
as we go along.
    From your perspective, having been both at the White House 
and now the State Department in important roles, is it your 
observation that the only way for our foreign policy endeavors 
and for the Secretary of State to be successful is for there to 
be a close relationship between the White House and the 
Secretary of State and that the Secretary have the knowledge 
that the White House will back up the initiatives that he or 
she endeavors to achieve?
    Mr. Blinken. I think, Mr. Chairman, in any administration 
you certainly want----
    The Chairman. That is a yes.
    Mr. Blinken [continuing]. A close relationship among----
    The Chairman. We have had, I know, a number of proposals 
from the State Department, including the no-fly zone in the 
northwest triangle of Aleppo and the air exclusion zone along 
the Turkish-Syrian border that the Turks supported. Why is it 
that in that case, in the case right now where Secretary Kerry 
is out there on a tether--you just mentioned that we are going 
to cut off bilateral negotiations on Syria. I just have a 
feeling that is just not much of a price to pay from Russia's 
standpoint.
    So there have been discussions of Plan B. Secretary Kerry 
talked to several of us in Munich in February about the 
cessation discussions, and there was going to be a Plan B if 
they failed. I have never seen signs of a Plan B. I know Russia 
does not believe there is a Plan B. Assad does not believe 
there is a Plan B. Iran does not believe there is a Plan B. So 
when I say that and refer to Secretary Kerry as a sympathetic 
figure, I say that because how can a Secretary of State have 
any chance of success in ending the murder, the torture, the 
rape, the bombing of innocent people, the killing of young 
people when the White House is unwilling at any level to have a 
backup if diplomacy fails?
    Mr. Blinken. Mr. Chairman, on all of these issues, 
including Syria, we work through a very deliberative process 
involving all of the agencies relevant to the issue at the NSC, 
with the State Department, with the Pentagon, with the 
intelligence agencies, et cetera. And we try to work through 
these things deliberately and make the best possible assessment 
of the best way to advance our objectives and our interests and 
to evaluate both the benefits and risks of any course of 
action. And that is what we have done in this case. And the 
policy that emerges is the product of these deliberations that 
the Secretary of State is very much fully a part of.
    In the case of Syria, it is useful to step back and ask 
ourselves this question: How do civil wars typically end? And 
we know from history and experience that they end in one of two 
ways.
    The Chairman. I do not want a history lesson. I would like 
to understand what Plan B is, the mysterious Plan B that has 
been referred to since February, the mysterious Plan B that was 
supposed to be leverage to get Russia to quit killing innocent 
people, to get Assad to quit killing innocent people. Just 
explain to us the elements of Plan B.
    Mr. Blinken. Two things, Mr. Chairman.
    In the first instance, Plan B is the consequence of the 
failure, as a result of Russia's actions, of Plan A in that 
what is likely to happen now, if the agreement cannot be 
followed through on and Russia reneges totally on its 
commitments----
    The Chairman. Which it has.
    Mr. Blinken [continuing]. Which it appears to have done. 
This is going, of course, to be bad for everyone, but it is 
going to be bad first and foremost----
    The Chairman. I want to hear about Plan B. I understand all 
the context here.
    Mr. Blinken. I think, sir, this is important because Russia 
has a profound incentive in trying to make this work. It cannot 
win in Syria. It can only prevent Assad from losing. If this 
now gets to the point where the civil war actually accelerates, 
all of the outside patrons are going to throw in more and more 
weaponry against Russia. Russia will be left propping up Assad 
in an ever-smaller piece of Syria.
    The Chairman. All of us understand that. What is Plan B? 
Give me the elements of Plan B.
    Mr. Blinken. So two things. Again, the consequences I think 
to Russia, as well as to the regime, will begin to be felt as a 
result of Plan A not being implemented because of Russia's 
actions.
    Second, as I indicated, the President has asked all of the 
agencies to put forward options, some familiar, some new that 
we are very actively reviewing. When we are able to work 
through these in the days ahead, we will have an opportunity to 
come back and talk about them in detail. But we are in the 
process of doing that.
    The Chairman. Okay. So let me just say what we already 
know. There is no Plan B. When I referred to Secretary Kerry as 
a sympathetic figure, I said that because he gets up every day, 
without any support. Some say he should resign over lack of 
support or at least threaten to. It is impossible to be 
successful in negotiating an agreement with someone if there 
are no consequences. In this case, the consequences that you 
are laying out is that Russia will fully determine the future 
of Syria.
    Mr. Blinken. I think Russia is going to bear very 
significant consequences over the failure of this----
    The Chairman. So far, that has not been the case, and I 
know that is what the President said when they came in and 
stepped into the vacuum a year ago.
    So, I rest my case. Diplomacy without any plan of failure 
is something that cannot be successful. Again, based on my 
experiences this weekend with an administration that is 
unwilling to even sit down and talk about a solution with the 
people who are involved because they think this is bad for our 
country, but unwilling to sit down and talk about a possible 
option just leads me to believe that we will continue to have 
non-success in Syria, non-success in other areas.
    Again, all of us have tremendous sadness over the fact that 
our country has idly sat by after encouraging the people of 
Syria. If you remember, Ambassador Ford was cheering these 
people on--cheering these people on. We made commitments to the 
opposition, which General Idris--I remember meeting with him in 
Turkey. We could not even get him the trucks that we committed.
    So it is a statement without a plan. It is the statement of 
redlines without follow-up. Again, I fear that more bad results 
are going to occur.
    With that, I will turn it to Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    And let me thank the ranking member for yielding time. We 
have had a train derailment in New Jersey with fatalities, so I 
need to get back. So I appreciate the opportunity. This is an 
incredibly important topic.
    So I think we had a lot of missed opportunities when this 
committee passed not unanimously but a strong bipartisan vote 
to train and to assist the vetted Syrian rebels, moderate 
Syrian rebels at the time that that could be done and gave the 
President the power and the wherewithal to do that. It was not 
done then.
    Then when it was done, it was done so feebly that those who 
we trained were largely eliminated.
    And then instead of having a safe zone, which many of us 
called for, which would have given individuals the opportunity 
to have an ability for security and maybe to organize those who 
might want to fight for their country, that was not done.
    And so I move forward and I see what has happened to date. 
Of course, your written testimony is much longer, but there is 
one paragraph of it that I think is incredibly important to 
talk about. You talked about Daesh, but you say in your 
statement on page 3: ``Ultimately we will not succeed in fully 
destroying Daesh until we resolve the civil war in Syria, which 
remains a powerful magnet for foreign terrorist organizations 
that thrive in the war's ungoverned spaces and draw strength 
from Assad's brutal destruction of his own nation.'' And I 
fully agree. That is the problem here, having missed 
opportunities and now creating a vacuum where Russia comes in.
    I know that I keep hearing the equation that Russia will 
ultimately come to an understanding that it is paying very 
large consequences for its participation. That has not changed 
their calculations at all. As a matter of fact, they avoid 
Assad in this process. I think that the temporary truce that 
was created, from the Russian perspectives, never had a real 
calculation to actually effectuate the results of what 
Secretary Kerry intended, which of course I would have 
applauded. But it was to give Assad the ability to rearm and 
reorganize, and then immediately the incredible, despicable 
attacks made against humanitarian convoys.
    So my question is this. I would have asked what Plan B is, 
too. I do not get a sense that there is one, and that worries 
me. I do not think we should wait for the next President to 
start devising something that moves in that direction. And I 
understand that Secretary Kerry has threatened to end bilateral 
talks with Russia over Syria.
    But I cannot fathom, for the life of me, what those talks 
are producing anyhow. I mean, Russia seems to agree only for 
the purposes of giving Assad time to rearm and regroup. What 
leverage do we really have? What are we doing here to Russia to 
change its calculation? Because now, whether we like it or not, 
they are the major player here. And I have had a totally 
different view that Russia does not share our end goals here. 
It does not have the same interests as we do. It has a very 
different set of interests.
    So understanding that, give me a sense specifically of what 
leverage do we have. Why are we still engaged in a conversation 
in which we have a, quote/unquote, partner that continues to 
undermine our purposes in Syria, as well as that of the 
international community, which is why I understand some British 
and French counterparts walked out of a meeting recently at the 
U.N.
    Mr. Blinken. Thank you, Senator.
    Two things.
    First, we believe that the effort that we have made to 
reach this agreement with Russia was the best way to 
effectively move toward ending the civil war because had it 
succeeded--and, indeed, it still can succeed and I think we 
will know in the hours ahead whether Russia is responsive or 
not--the cessation of hostilities would be restored, 
humanitarian assistance would flow. You would get the Syrian 
air force out of the skies over civilian populated areas. 
Russia would be focused, as it claims it has been on Daesh.
    Senator Menendez. So we understand the benefit if it had 
succeeded. Let us presume for argument's sake that it is not 
going to succeed because Russia does not want it to.
    Mr. Blinken. So, again, I know that this may not fully 
resonate, but, first, Russia escalated its engagement in Syria 
because it has been there all along. It has been there for 
years--precisely because it was at risk of losing its only 
foothold in the Middle East. And it came in harder in order to 
save Assad from falling at a time when it looked like he would, 
although I think that assessment was probably overly 
optimistic. It is now in a position where, having gotten in, it 
is very, very hard to get out because Assad cannot win. They 
can prevent him from losing, but he cannot win. So they are 
stuck.
    In the first instance, the leverage is again the 
consequences for Russia of being stuck in a quagmire that is 
going to have a number of profoundly negative effects.
    First, they are going to be bearing the brunt, if the civil 
war escalates as a result of their actions, of an onslaught of 
weaponry coming in from outside patrons.
    Second, they will be seen in their own country and 
throughout the world and in the region as complicit with Assad, 
with Hezbollah, and with Iran in the slaughter of Sunni 
Muslims--5 percent of their own population is Muslim.
    Senator Menendez. But do we agree they are already 
complicit on that?
    Mr. Blinken. Indeed, but this is only going to get worse if 
the civil war gets worse as a result of their actions.
    Any efforts that they have been making to peel away 
countries, for example, on Ukraine I think the international 
disgust at the actions that they are taking in Aleppo will make 
that even more difficult than it already is. So all of these 
consequences are there.
    But as I said in response also to the chairman's question, 
we are also very actively looking at additional options that we 
can bring to bear to advance our objectives in Syria. And those 
objectives are ending the civil war and getting a political 
transition.
    Senator Menendez. I know what the objectives are. I just do 
not see that the consequences that you are suggesting can be 
leveraged.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I know Senator Rubio is here, but he wants to get adapted. 
If you could go ahead, that would be great.
    Senator Cardin. Thank you, Mr. Chairman.
    Thank you, Secretary Blinken, again.
    What has happened has happened, and I think history will 
reflect decisions that were made and whether they were the 
right decisions at the time. We need to learn from the past and 
decide how to move forward.
    There is no question that there is an urgent need to 
protect human life, civilian life, in Syria, and the United 
States needs to act boldly.
    I am encouraged, Secretary Blinken, by your comments that 
there will be very significant consequences for Russia's 
actions. I look forward to seeing how that is translated into 
U.S. policy and U.S. international leadership, working with 
other countries. We need bold U.S.-led actions to protect 
civilian lives. We need that now, and I look forward to 
reviewing with you the options that are being considered and 
the actions that are taken to protect civilian life and the 
significant consequences concerning Russia.
    I want to ask you a specific question. Could Russia have 
stopped the Assad regime from what it has done in the last 
several weeks? And does Russia have enough influence over the 
Assad regime to change their behavior?
    Mr. Blinken. I believe the answer is yes.
    Senator Cardin. Number two, Iran has been extremely engaged 
in Syria. I have not seen the U.S. take action or work with the 
international community to take action against Iran in regards 
to their support of terrorism in Syria. Are we restricted 
because of the JCPOA? My understanding is that the terms of the 
JCPOA do not restrict us, but have there been diplomatic 
restrictions as a result of the JCPOA that has limited our 
ability to hold Iran responsible for its actions in Syria?
    Mr. Blinken. The answer is no, Senator.
    Senator Cardin. So why have we not taken action against 
Iran?
    Mr. Blinken. We have, and indeed we continue with regard to 
Iran----
    Senator Cardin. With regard to their activities in Syria?
    Mr. Blinken. Yes, sanctioned activities, entities that 
have----
    Senator Cardin. New sanctions have been imposed?
    Mr. Blinken. Sanctions have been imposed on entities in 
Iran that have sought to do business or support the regime.
    Senator Cardin. I understand we have sanctions that are 
related to their nefarious actions other than the nuclear 
activities, but I am not aware that we have increased those 
sanctions or have looked at ways in which we can apply more 
pressure against Iran. It is my understanding we have been 
pretty guarded in these activities.
    Mr. Blinken. We put in place at the very outset of the 
crisis, you know, various sanctions with regard to Syria to 
isolate and put pressure on the regime, and those sanctions 
also include sanctioning individuals or entities who do 
business in various ways with the regime, with the military, et 
cetera. And in that context, my understanding is that Iranian 
entities and individuals have been sanctioned.
    Senator Cardin. You had said that we are looking--the 
President instructed to look at all options in regards to the 
current crisis in Syria. Is part of that taking action against 
Iran?
    Mr. Blinken. I do not want to get ahead of where we are in 
our discussions. But Iran is clearly, along with its proxy, 
Hezbollah, the most serious impediment to ending the civil war 
in that its support for the regime is the most significant of 
all. Now, as I said at the outset, I believe that given the 
support that Russia has provided, support that has gotten 
greater since Russia increased its engagement in Syria, it too 
has the capacity to change the actions of the regime. But there 
is no question that Iran and Hezbollah are arguably the most 
important outside supporters of the regime.
    Senator Cardin. Well, I think you would agree with me that 
since the JCPOA has been agreed upon, Iran has shown no slowing 
down of their activities in Syria. So I would hope that we 
would see some aggressive U.S. leadership to make it clear that 
that conduct does not get a free pass because of the JCPOA. So 
I would hope that that would be part of the options that are 
being considered.
    And let me also say in regards to Russia, it is not an 
isolated problem we are having with Russia. Russia has attacked 
America through cyber, trying to compromise our electoral 
process. Russia has violated the Minsk agreements and is 
causing Ukraine to be compromised today. And I could list a lot 
of other activities that Russia is participating in.
    So as we look at very significant consequences that Russia 
will face as a result of their failure to live up to the 
ceasefire agreements, I hope that in that equation will go 
these other activities so that there is a very clear message to 
Russia that U.S. leadership will not tolerate that type of 
conduct, and we are prepared to take unilateral action. We are 
also prepared to work with the willing to make sure there is a 
price to be paid for their activities.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Ranking Member. I am sure that 
there will be more said. I would love at some time, if there is 
a Plan B, to have a classified briefing if that is what it 
takes. I think we all understand that it is nonexistent, and 
the only thing that is existent is words.
    Senator Rubio?
    Senator Rubio. Thank you.
    Thank you, Secretary Blinken, for being here.
    In your statement, you mention Russia six times, as you 
should. They are clearly involved, but there is an omission. I 
do not believe that in your testimony you mention Iran a single 
time. And in fact, until Senator Cardin just raised it, I am 
not sure it had been discussed yet in terms of Iran's role in 
this region.
    Earlier this month, you said you could not guarantee to the 
American people that the funds that Iran has received, as a 
result of the payments that were made and of the JCPOA, have 
not been used for terrorism. I think it is common sense that in 
fact they would do that. We have seen, for example, press 
reports that Iran's Guardian Counsel instructed its central 
bank to transfer $1.7 billion to the military of Iran. And by 
the way, I do not think that number is a coincidence. So we 
have see the top IRGC commander last week say that the IRGC and 
its allies supply intelligence for Russian airstrikes in Syria.
    And so I think the first thing we have to point to here is 
the fact that these pallets of taxpayer dollars that have been 
allowed to Iran have ultimately helped them help Russia target 
innocent Syrians in this quest to increase their dominance in 
the region or their role in the region and to prop up Assad.
    Again, I do not know how we justify the transfer of all of 
these funds to the Iranian regime knowing that the Iranian 
regime is deeply involved in propping up the Assad regime and 
in the process providing assistance to all these atrocities 
that are now being committed by both Assad and the Russians. 
How do we justify that?
    Mr. Blinken. Thank you, Senator.
    First, as you know, because you have been so focused on 
this for many years, Iran has been engaged in the support of 
terrorism and destabilizing activities, including in Syria, for 
a long time during sanctions, in other words, before the 
nuclear agreement, during the negotiation of the agreement, and 
indeed, since sanctions have been lifted in the context of that 
agreement. So their conduct has been consistent throughout. 
And, again, they were doing this before when we had the 
sanctions regime in place because of their nuclear program.
    The one thing that has changed is we have taken a nuclear 
weapon off the table far into the future, which is profoundly 
good for our interests and the interests of our partners and 
allies.
    But as we have said all along, we fully expected that they 
would continue to take these actions in various ways in various 
places after the agreement. That is why we have worked very 
hard to continue and, indeed, to increase our efforts to 
counter them.
    So we have worked very closely, as you know, with the Gulf 
partners building up their capacity. We just signed a record-
breaking MOU with Israel to make sure that they have in place 
over the next decade what they need for their security, and we 
continue to implement sanctions against Iranian entities.
    Senator Rubio. So the one thing has changed that basically 
they were involved in terror before, they are involved in 
terror now--and I consider their support of Assad to be part of 
that--that the only thing that has changed is that now we have 
made it harder for them to acquire a nuclear weapons 
capability.
    I would say a second thing has changed. They now have 
access to millions and millions of dollars they did not have 
access to before. So you have the world's key sponsor of 
terrorism now has millions of dollars more than they once did. 
There is no evidence that they are using it to build hospitals, 
bridges, roads, orphanages, sponsor food programs around the 
world. We do not see aid convoys from Iran providing food and 
medicine to people suffering in Syria.
    What we see is an increased amount of support for the Assad 
regime and the sponsorship of terrorism.
    So one of the things that has changed is they now have 
access to millions of dollars they did not have a year and a 
half ago.
    Mr. Blinken. Senator, our best assessment----
    Senator Rubio. Billions. I apologize. Billions.
    Mr. Blinken. Our best assessment is that given Iran's very 
significant economic difficulties, the vast bulk of the 
resources that they have had access to as a result of the 
agreement or as a result of The Hague settlement--these funds 
have been dedicated to the domestic economy, not to regional 
activities. Under the nuclear agreement, we believe that they 
now have access to roughly $50 billion that had been frozen or 
restricted in foreign accounts. They need half a trillion 
dollars to meet their investment needs, government obligations, 
propping up their currency, et cetera. And as I said, they have 
engaged, alas, in these activities before, during, and after. 
And also, unfortunately, a lot of support that they are 
providing to terror to proxies is not very resource-intensive. 
So that is why even as we have implemented the agreement, which 
in our judgment is a very good thing for our security and that 
of our allies and partners, we have worked to intensify our 
efforts to counter these activities.
    Senator Rubio. But even if we assume what you said is true, 
that the money has been used to prop up their domestic economy, 
ultimately if that were the case, that domestic economy would 
then produce more revenue that they could use to fulfill the 
funding needs of their priorities, which is terrorism and the 
propping up of Assad.
    I guess the point for the average American who is watching 
this issue here is the bottom line. You have the world's 
supreme sponsor of terrorism who now has billions of dollars 
more than they once did as a result of this, and we are somehow 
supposed to believe that the bulk of it is being spent to 
improve the way their economy functions and that somehow, 
because funds are fungible, that this is not being used to 
increase their other aims that they have around the world and 
that includes the propping up of this extraordinarily vicious 
regime of Assad and their enablers in Russia.
    So, again, I think this is just another example of how this 
deal and everything that surrounds it has now provided more 
resources to the Iranian regime to continue to do what they 
did. And one of the things they do with the money that they 
have been given is they are able to fund their intelligence 
gathering capabilities that allow them to help the Russians 
with their airstrikes, and those are the airstrikes that struck 
a convoy a week ago. Those are the airstrikes that are 
decimating Aleppo and creating a situation on the ground that 
we have not seen in decades anywhere in the world.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Secretary Blinken, thank you for being 
here this morning.
    Sadly, I have to say that I share my colleague's views that 
despite the best intentions that our policies in Syria have 
contributed to where we are today. There was a news report that 
just came over that Russia has rejected our demands for a 
resumption of a Syrian ceasefire and that they vowed today to 
press ahead with their operations in Syria. So I guess that 
says to me--and I think the news has been very clear--that 
Russia has escalated the civil war in Syria and they intend to 
continue to do that and Assad intends to continue to do that no 
matter what the expense is to his own people.
    So I am not going to beat the Plan B horse because I 
appreciate that you have not been able to share with us what 
might be being considered. And maybe you are not able to talk 
about what options are being discussed that we might still have 
in Syria. But it seems to me that we need to look at all of 
those options because the current effort is not working. And I 
appreciate the arguments you are making. I just do not think 
they are working.
    So let me go on to a couple of other areas where I am 
interested in what you can share with us.
    On the Leaders' Summit on Refugees, I thought your 
appearing on Sesame Street was a good thing. It is nice to let 
young people know what is going on.
    But can you talk about which states have been particularly 
generous, what has come out of that summit, what is being 
looked at to implement the commitments that have been made at 
the refugee summit?
    Mr. Blinken. Thank you very much, Senator.
    As you know and as the committee knows, we are facing the 
largest single wave of human displacement since World War II. 
Syria, of course, is what is generating a lot of it, but it is 
actually a global problem, a global crisis because we see 
forced migration of one kind or another virtually on every 
continent. In Africa alone, there are about 12 countries where 
people are, in effect, forcibly displaced by conflict. Central 
America, Afghanistan, Pakistan, around the world.
    So the President brought together countries and leaders 
from around the world at this summit in New York on the margins 
of the General Assembly to take action, not just to talk about 
the problem, but to do something about it. And that is exactly 
what we did and what he did.
    There were three objectives that we had going into the 
summit.
    One was to get more resources from around the world into 
the humanitarian support system because, as the committee 
knows, unfortunately, it is significantly underfunded and it is 
basically overmatched by the scale and scope of the problems 
that we are facing. So we wanted to get more resources in, and 
we wanted to get countries that had not participated as much to 
participate or to do more. And we succeeded. We have got 
countries, all told, to put in for this next year, about 30 
percent more than they did in 2015. So we are looking at 
billions of additional dollars for the humanitarian system.
    Second, we were looking for countries to make additional 
commitments to resettle refugees, and we sought to basically 
double the number of legally resettled persons around the world 
over the next year. That objective, based on the commitments 
that were made, was also achieved.
    Third and finally, we wanted to help build the resilience 
of countries that are receiving refugees, basically the country 
of first refuge and asylum, in the case of Syria, Turkey, 
Lebanon, and Jordan, which as the committee knows, have borne 
extraordinary burdens with millions of refugees. We wanted to 
increase support to them, but we also wanted them to make 
additional commitments to make sure that children could go to 
school and adults could go to work because, as Senator Cardin 
said, we do risk a lost generation of children from these 
conflicts if they are not able to go to school. We now have 
commitments over the next year for there to be an additional 1 
million places in schools around the world for refugee children 
and another 1 million jobs, legal jobs, around the world. So 
these are significant. These are real. These are concrete.
    That said, ultimately, the answer to a lot of this has to 
be resolving the underlying conflicts that are causing people 
to flee, to leave their homes, to leave their families in some 
cases, to put their lives and their children in jeopardy. We 
recognize that, and that, of course, is why it is so important 
to work to end this conflict in Syria.
    But we did make a major advance. Now the critical thing 
will be to make sure the countries make good on their 
commitments, and we will be looking at that very carefully.
    Senator Shaheen. Thank you. My time is up. So I will wait 
for the next round for other questions.
    The Chairman. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary, for being with us today.
    A comment and then a question.
    So at the heart of the most spectacular U.S. foreign policy 
failures of the last 50 years is hubris, is this idea that 
there is a U.S. solution, usually a U.S. military solution, to 
every problem in the world. You can read Vietnam and Iraq and 
Libya through that lens. And this idea that is sort of being 
proffered on this committee, frankly by both sides of the 
aisle, but there are these clear alternatives to the current 
policy in Syria or Iraq that would lead to a radically 
different reality on the ground is fantasy. I hate the place 
that we are in today. It is an ongoing global tragedy.
    But this idea that there was a magical moment in 2012 where 
we could have parachuted arms to the Syrian rebels and they 
would have overrun Assad is not true. Russia and Iran have had 
for a very long time equities in that country that are unequal 
to ours. They were always going to come to the defense of Assad 
with ferocity.
    This idea that a safe zone would magically change the 
reality on the ground is a fantasy as well. Our own military 
leaders have thrown cold water on this idea because it would 
involve some major ground forces to make it meaningful, and 
there are very few people in this Congress who are willing to 
support the major deployment of U.S. ground forces.
    I just say this because maybe, just maybe every bad thing 
that happens in the world is not a fault of failed U.S. policy. 
And maybe, just maybe there are times and there are places 
where there is not always a U.S. answer. Now, I think we can be 
incredibly helpful. I think that we can work with partners to 
try to make this situation better.
    But I read the last 3 years as a continued ramp-up, albeit 
it very slowly, of U.S. military engagement in Syria and the 
situation on the ground for the Syrian people getting worse and 
worse and worse, not better and better and better. And I think 
history should probably teach us that those two things are 
likely not a coincidence.
    I reject the idea that there are easy, clear alternatives 
that the administration just is not looking at. This is a hard 
problem with no easy solutions, and we should operate from an 
assumption that there are not always U.S.-led solutions to 
terrible, intractable problems in the world.
    Let me ask you a question about where this failing of 
hubris could get us in trouble in the coming weeks and months, 
and that is in Mosul. So a new announcement that we are going 
to put 600 more U.S. military personnel on the ground to help 
retake Mosul, not an announcement that we are going to make a 
diplomatic surge in and around Mosul to try to solve some of 
the governance problems in that city. So share with us, maybe 
share with me in answer to my skepticism that a military surge 
in Mosul is ultimately going to solve the political problems 
that you correctly identify as the most intractable. We do not 
have a military quagmire in Iraq. We could solve the military 
problem in a heartbeat by putting another 200,000 U.S. troops 
back in. We have a political problem.
    And so Mosul seems to me to be an example of where you have 
responded to pressure to try to make progress by announcing a 
military surge. I have no doubt that with 600 or 1,200 or 1,400 
U.S. troops we will get the military objective that we want in 
Mosul. But how does that get us the political solution? Nineveh 
is an incredibly diverse province and what allowed for ISIS to 
overrun Mosul in the first place was not a military vacuum. It 
was a political vacuum in that city. So how do we make sure 
that there is a political component here so that our military 
hubris that we often have does not get us in the same, exact 
situation that it has over and over again in that region?
    Mr. Blinken. Senator, if I have a chance, I would like to 
come back to your opening comment, but I want to answer your 
question.
    Mosul is and will be the culmination in the Iraq side of 
the theater of the counter-ISIL or counter-Daesh campaign. And 
as I said at the outset in my opening remarks, it is a vitally 
important opportunity to deny ISIL its physical or geographic 
caliphate, which has been at the heart of its narrative and at 
the heart of its ability to project success. So it is vitally 
important.
    But your comments are also vitally important because you 
are exactly right, that this cannot be and, indeed, is not just 
a military effort. We are working along multiple tracks at the 
same time in a coordinated fashion. On the military piece, 
making sure that all of the forces are coordinated under one 
plan with Iraqi leadership, but bringing in all of the critical 
elements to include the Iraqi Security Forces, the Kurdish 
Peshmerga, and critically tribal elements from Nineveh. There 
is now an objective of raising about 15,000 members from the 
tribes, and we are well on track to do that. That is part one.
    Part two is making sure that we have in place all of the 
capacity we need to deal with what are likely to be the 
humanitarian consequences of seizing Mosul and, in particular, 
internally displaced persons. The U.N. is projecting that there 
could be up to a million people forced to flee Mosul as a 
result of the effort to liberate it. We are working very hard 
with the U.N., with the Iraqis to put in place everything that 
they need to care for these people with food, with shelter, 
with medicine. And that also is on track. It is challenging, 
but it is on track. We have raised the money to do it. We are 
prepositioning resources.
    Third, stabilization of Mosul itself after it is liberated 
so that people have something to go back to as quickly as 
possible. There too we have raised significant resources. We 
have a plan in place to do that, to restore basic services, 
basic security.
    Fourth and finally, you are exactly right. Governance--
because unless the basic governance structure is in place and 
everyone agrees to it, we are going to have problems after the 
liberation. We have worked very hard with the Iraqi Government, 
with the Kurds, with other actors to make sure there is basic 
agreement on what governance will look like in Mosul and in 
Nineveh more generally, centered on the governor, who is the 
constitutionally appropriate person for the province, the 
provincial council, but also persons designated by Baghdad and 
by Irbil to support them and the city itself, in effect, 
divided up into eight quadrants with sub-mayors to make sure 
that, as much as possible, those making decisions are very 
closely representative of the people for whom they are making 
decisions.
    So this is a coordinated effort. And you are exactly right. 
It has to bring in all of these elements, and that is exactly 
what we are working on.
    We have also tried to learn lessons from the past. In 
Fallujah, when it was liberated, as you know, we saw some 
reprisal atrocities committed by the Shia PMF, popular 
mobilization forces. We have made sure that for Mosul there 
will be no southern or Shia PMF going into Mosul City, 
similarly no Kurdish Peshmerga going in, and as I said, a 
significant hold force comprised of members of Sunni tribes 
from the region, both in the security forces and in the police. 
So we have tried to learn from that. And also, as IDPs leave 
Mosul and are screened before they go to find refuge provided 
to them by the government and by the United Nations, we want to 
make sure that that process is done as quickly as possible, 
keeping families together, and again without any of the 
divisive elements being part of it, including the Shia PMF. So 
we very much have that in mind.
    Just very quickly on your initial comment. I do think it is 
very important that we not be bound by history but we be 
informed by it. And in the case of Syria, we do know this. 
Civil wars throughout history have ended basically in one of 
three ways.
    One side wins. That is not likely to happen anytime soon in 
Syria because the dynamic that we have seen is that as soon as 
one side gets the advantage, the outside patrons of the other 
side come in with more and right the balance. And that has been 
what has happened. So what the dynamic is outside patrons can 
make sure that no one loses in Syria, but it is very, very hard 
to make sure that one side wins.
    The second way these things end is the parties exhaust 
themselves. Tragically what we see in history at least is that 
that takes on average 10 years. Syria is in year 6. And when 
there are a multiplicity of actors involved, it takes even 
longer.
    The third way these things end is some kind of outside 
intervention, either military or political. Military 
intervention of the scale necessary to actually end the 
conflict is technically possible, but then whoever does that is 
going to be left holding a very, very heavy bag with all of the 
unintended consequences that will flow from that. And I do not 
think the United States nor, for that matter, Russia or any 
other actor is prepared to do that. That leaves, in effect, 
outside powers, the United Nations and others trying to put in 
place and, as necessary, impose some kind of political 
resolution. That is what we have been working on because we 
have seen that as the best way to try to end this.
    The Chairman. Thank you.
    I always appreciate my friend, Senator Murphy's comments 
and perspective,. and I think hubris certainly is something 
that can be the downfall of us all.
    I will say that hubris also, from the standpoint of making 
big statements about what the United States is going to do, 
raises people's expectations. I think we certainly have made 
bold statements about what we were going to do relative to 
Syria that were followed up with almost nothing. And in that 
case, we have caused the sons and daughters and brothers and 
uncles and sisters of those in the Syrian opposition to be 
slaughtered as they waited for those things that we stated we 
were going to do but never did.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Secretary Blinken, last October, former President Jimmy 
Carter wrote in the New York Times that since 2011, the United 
States' precondition that, quote, Assad must go, has reinforced 
escalation of Syria's civil war and inhibited serious 
discussion about compromise solutions.
    Last Wednesday, President Carter published a follow-up 
piece in the Times calling on the entire international 
community to focus for now on just one imperative: stop the 
killing. He wrote that the discussions should focus on a goal 
of temporarily freezing the existing territorial control 
without the government, the opposition, or the Kurds giving up 
their arms. Additionally, measures should be agreed upon to 
stabilize conditions in territories controlled by these 
belligerents with guarantees of unrestricted access to 
humanitarian aid.
    Secretary Blinken, what do you think about that proposal? 
The United States could advance that even in the absence of 
Russian or Syrian agreement by proposing a Chapter 7 United 
Nations Security Council resolution requiring all parties to 
immediately stop the killing, stabilize civilian populations, 
and ensure full access to humanitarian relief for all victims 
of this war. Russia's ongoing atrocious behavior in Aleppo 
makes it clear that they would not support such a resolution. 
However, it would put them on notice that at the United Nations 
we were about to have this global discussion of the need to 
just stop the killing.
    Can you talk about President Carter's proposal, what you 
think about it, and putting aside the ``Assad must go'' 
movement for the time being so that we can just begin to put an 
end to this humanitarian crisis?
    Mr. Blinken. Senator, thank you very much. And forgive me 
because I have not read it. So I would like to be able to read 
it in detail, but I heard your description of it.
    First, in effect, what we have been trying to achieve, with 
Russia's support, is a cessation of hostilities that would, in 
effect, end the violence, the provision of humanitarian 
assistance to people who need it in besieged areas, and as I 
said as well, taking the Syrian air force out of the skies over 
civilian populated areas and getting everyone to focus on the 
common enemy, which is Daesh and Al Qaeda, Al Nusra, in Syria. 
So, in effect, those were the first steps that we thought were 
so critical.
    Now, if we were able to take those steps, we would then 
have in place the conditions under which all of the parties 
could begin to negotiate a political transition in Syria.
    Senator Markey. But it is broken. So what do you think 
about taking it to the U.N., taking it to a Chapter 7, 
escalating this thing to a point where everyone is going to be 
forced to sit down and discuss it, Syria and Russia might not 
like it, but at least we are going to be focusing upon the core 
problem of stopping the killing?
    Mr. Blinken. So we are very actively looking at what more 
can be done at the United Nations.
    Senator Markey. Would that include a Chapter 7?
    Mr. Blinken. Sure, except that, of course, Russia would 
almost certainly veto a Chapter 7.
    Senator Markey. And that is all right. Let us have Russia 
veto it. Let us have Russia be--let us pin the tail on the 
donkey. Let us have the culpable parties be put in place. Let 
us not allow them--I just think there is such an atmosphere of 
ambiguity. It is just so complex in Syria, in Aleppo. There are 
so many parties involved that it is just very difficult for the 
world to understand who has the capability----
    Mr. Blinken. Well, you are exactly right, Senator, and that 
has added to the complication because we have a multiplicity of 
actors, all of whom have different priorities. Our priority has 
been in the first instance Daesh because that poses the most 
immediate threat to us and to our interests. Russia's priority 
has been to keep Assad in place or at least to maintain its 
foothold in Syria. The priority of the Turks has been actually 
dealing with the Kurds and preventing them----
    Senator Markey. Exactly. All of that is true.
    Mr. Blinken. The Saudis have been most interested in 
checking Iran.
    So in all of these ways, because people come to this with 
different interests and different priorities, it makes it even 
more complicated.
    That said, I think you are right that further turning up 
the heat at the United Nations is something that we have to 
very closely look at.
    Senator Markey. The administration announced that this week 
it would increase the supply of arms to Kurdish militant groups 
in Syria to enable them to play a leading role in a future 
offensive to take Raqqa, a Sunni city, back from ISIS. What are 
the risks of relying on a Kurdish force for military operations 
in a Sunni Arab city? And did you discuss this with the Turkish 
government before you made that announcement?
    Mr. Blinken. In fact, I was in Turkey just this week, and 
we are looking with our Turkish partners and allies very 
closely at how we continue the campaign in Syria to take 
territory away from Daesh.
    Senator Markey. What was their perspective on using Kurdish 
troops aided by the U.S. in Raqqa?
    Mr. Blinken. As you know, Senator, we have worked in 
northern Syria with something called the Syrian Democratic 
Forces, the SDF. That has several components. One is the Syrian 
Arab coalition, so predominantly Arab forces. And it also 
includes Kurdish forces, in this case the YPG. And the Turks 
have not been comfortable with support to this Kurdish element 
of the Syrian Democratic Forces, and it has obviously caused 
some tensions. But it has resulted in taking back Manbij, which 
was a critical transit point for Daesh in and out of Syria and 
in and out of Turkey. A treasure trove of information about 
their external plotting came from that.
    And so we need to be able to work with effective actors on 
the ground in Syria. That is what we have done. That is what we 
will continue to do. But we also need to do it in a way that 
respects the concerns and interests of our Turkish allies. So 
we are in the midst of conversations with them about the best 
way to move forward, including on Raqqa.
    Senator Markey. And if I could, just going back up to Mosul 
again in terms of your statement that it will be Sunni 
government officials, Sunni police that will be in charge of 
Mosul, does the government in Baghdad agree with that? Have 
they signed off on that? Are they going to keep the Shia 
militia out?
    Mr. Blinken. That is their commitment, just as it is the 
Kurdish commitment to keep the Kurdish Peshmerga out of the 
city, and the core of the force that liberates Mosul will be 
the Iraqi Security Forces, backed by the coalition with the 
support of the Peshmerga. The tribal elements that are being 
trained, equipped, brought onboard with the goal of getting 
15,000 of them will predominantly be the holding force once the 
city is liberated.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Our ranking member for closing comments.
    Senator Cardin. I just want to thank our Secretary for your 
help here. Just keep us involved on the options being 
considered in regards to Syria.
    In regards to Mosul, it could be a wonderful advancement 
because militarily things look like they are in place. I share 
Senator Markey's concerns that in practice we do not see the 
ethnic reprisals that we have seen happen so often when 
territory has been reclaimed from ISIS's grips. So I think that 
is going to be more difficult in getting the confidence 
necessary. So I would just urge us to work together.
    In regards to Turkey, I would enjoy talking to you, not 
through questioning here, as to how successful we are in 
getting our NATO partners constructive participation in keeping 
the border closed but also dealing with the Kurdish issues that 
do not distract us from dealing with ISIS.
    But I thank you very much for your service and look forward 
to continuing this discussion.
    The Chairman. I too want to thank you for appearing today 
and thank you for your service and mostly for your 
responsiveness.
    I do want to say that I think history does teach us a lot. 
I think basing your foreign policy on not doing what the last 
person did leads us to a place that is very negative for U.S. 
national interests. And what I hope is going to happen as 
people have watched the results of this strategy, is that we 
understand that foreign policy is much more complex--it takes 
more engagement than just creating a policy of not being what 
your predecessor was. I am hopeful that the next President and 
the next Secretary of State can learn from the failures that we 
have witnessed and hopefully in some form or capacity, what you 
have learned from this will be helpful in that regard as well.
    Mr. Blinken. Mr. Chairman, I would welcome the opportunity 
actually to pursue that conversation at another time whenever 
it is convenient to you. I have to tell you from my experience 
we are more engaged in more places and more ways than we ever 
have been before. I think there is a debate about the----
    The Chairman. There has been a negative trend.
    Mr. Blinken. No. I think there is a lot of positive too, 
but I would be happy to pursue that conversation.
    The Chairman. I would welcome that and would welcome that 
with Secretary Kerry and others also, which I know has been 
difficult to achieve.
    But with that, the meeting is adjourned.
    The record will remain open through the close of business 
Monday. If you could fairly promptly, with all the other 
responsibilities you have, respond to those. We thank you for 
being here.
    The meeting is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


            Responses to Questions for the Record Submitted 
              to Deputy Secretary Blinken by Senator Rubio


    Question.  A top IRGC commander last week said that the IRGC and 
its allies supply intelligence for Russia's airstrikes in Syria. Given 
that the IRGC and Russia are working closely in Syria, why would this 
administration ever agree to share intelligence and targeting 
priorities with the Russian military?

    Answer. The United States has not been sharing intelligence 
information or targeting priorities with the Russian military and would 
never share information with Russia in support of the regime. On 
September 9, Secretary Kerry and Russian Foreign Minister Lavrov 
reached an arrangement that would have eventually resulted in the 
establishment of a Joint Implementation Center (JIC) for closer 
coordination specifically to counter al-Qaida in Syria and Daesh, which 
remain significant threats. The arrangement included several pre-
conditions designed to test the veracity of Russia's commitments before 
establishing the JIC, which Russia has so far failed to honor.


    Question.  A press report stated that the Obama administration 
wired $850,000 in July 2015 to an account for Iran in the Netherlands.


  <diamond> Can you confirm this wire transfer took place?

  <diamond> Is it fair to say that wire transfer occurred during a 
        period of heightened sanctions against Iran?

  <diamond> Can you confirm the administration wired the $8.6 million 
        payment to Iran for the heavy water transfer?

  <diamond> Why did the President and others say that the $1.7 billion 
        ransom payment to Iran had to be in cash because of the 
        inability to wire money to Iran?

    Answer. The July 2015 payment you are referring to was the result 
of an award from the Iran-U.S. Claims Tribunal at The Hague (``the 
Tribunal'') to Iran for less than $1 million. The award was paid via 
wire to an account of the Iranian Center for International Legal 
Affairs, or CILA, in the Netherlands. CILA is the Iranian office 
responsible for representing Iran before the Tribunal. No direct 
transfer was made from the U.S. to Iran. Iran asked us to wire the 
award payment to that account in the Netherlands, as CILA was able to 
absorb the funds for purposes of paying Iran's Tribunal and litigation 
expenses.
    As the President said, U.S. banks do not have direct banking 
relationships with Iran. Iran has encountered problems with a wide 
variety of payments prior to sanctions relief under the Joint 
Comprehensive Plan of Action (JCPOA) and, even after Implementation 
Day, prior to Iran's reconnection with SWIFT and some European banks. 
The payments in January 2016, which were made as part of a settlement 
of a long-standing claim before the Tribunal, and did not constitute a 
ransom payment, occurred before Iran reestablished these banking 
connections. The payments were structured to provide Iran access to the 
funds and avoid the otherwise certain delay and immobilization of the 
funds prior to banking reconnections, which was essential to closing 
the settlement agreement and saving the U.S. taxpayer potentially 
billions of dollars.Regarding the heavy water payment, in the months 
following the lifting of sanctions under the JCPOA, Iran began to gain 
incremental access to the international financial system, which opened 
up more options for executing transactions, such as the heavy water 
transaction you referenced. Even this transaction took several months 
to complete, however.


    Question.  Several administration officials have justified these 
payments to Iran coinciding with release of hostages by claiming that 
there were three separate negotiations happening at the same time 
(JCPOA implementation, release of U.S. hostages, and resolution of the 
Iranian claim), which naturally converged on January 17.


  <diamond> If there were three separate tracks, can you confirm that 
        three separate U.S. officials negotiated these issues in the 
        run-up to January 17, 2016?

  <diamond> Did three separate U.S. officials sign documentation on 
        JCPOA implementation including the treatment of Bank Sepah 
        under the JCPOA, release of the U.S. hostages, and resolution 
        of the Iranian claim?

  <diamond> If not, what U.S. official signed the bilateral documents 
        between Iran and the United States resolving these three 
        tracks?

  <diamond> What is the name of the Iranian official who signed the 
        documents committing to Iran's effort? What is his affiliation? 
        What group does he work for?

  <diamond> Was the transfer of the cash timed in any way to coincide 
        with the release of the hostages?

  <diamond> Given all of these facts: how was this not a ransom 
        payment?

    Answer. The President and the Secretary have made clear, the United 
States transferred funds to Iran to effectuate the settlement of a 
long-standing claim at the U.S.-Iran Claims Tribunal at The Hague. The 
timing of the Hague settlement was a consequence of the United States 
taking advantage of the opening of diplomatic opportunities with Iran 
on several fronts simultaneously, including the opportunity to minimize 
litigation risk with respect to Iran's contract claims arising under 
the U.S.-Iran Foreign Military Sales (``FMS'') Program. Implementation 
Day of the Joint Comprehensive Plan of Action (JCPOA), the release of 
several American citizens unjustly imprisoned in Iran, and the 
settlement of the Hague claim were all made possible by this 
intensified diplomatic engagement, but all were resolved on their own 
merits.
    Regarding the allegations that this settlement constituted ransom 
to free American citizens who were released from prison in Iran on 
January 17, the administration has repeatedly made it clear since 
January, and President Obama recently reiterated, that this settlement 
did not constitute ransom and that the United States has not and will 
not pay ransom. Upon Iran's release of several unjustly detained 
Americans, the United States provided relief to certain Iranian 
citizens charged with primarily sanctions-related crimes, several of 
whom are dual U.S.-Iranian nationals, as a one-time reciprocal 
humanitarian gesture.


    Question.  In June of this year, 51 State Department officials 
submitted a memo through the Department's ``dissent channel'' in which 
they called for the United States to carry out military strikes against 
the Assad government in order to stop its cease fire violations. They 
wrote that if the Obama administration continued to allow the Assad 
government and its backers to attack Syrian civilians with impunity, 
the situation in Syria will ``continue to present increasingly dire, if 
not disastrous, humanitarian, diplomatic, and terrorism-related 
challenges.'' Do you agree with these diplomats within your Department 
that the failure of the administration's efforts has indeed allowed the 
situation Syria to deteriorate, leading to the consequences which they 
warned of?

    Answer. There is no way to look at what is happening on the ground 
in Syria and not feel profound grief and horror. In the midst of such 
tragedy, it is tempting to want a neat answer that ends the civil war 
and eases suffering overnight. But the challenges before us defy silver 
bullet solutions. These are extremely tough issues: How to get a 
successful cessation of hostilities; how to ensure full, unimpeded 
humanitarian access to all Syrians in need; and how to bring about a 
genuine political transition in accordance with the Geneva Communique. 
We are working all-day, every day to defeat Daesh in Syria, Iraq and 
elsewhere. We have regular, frank discussions about how best to go 
about it. We are very focused on reducing the violence and providing 
humanitarian assistance to the still millions of Syrians in need.
    We do not believe there is a military solution to this conflict, so 
we are working to bring about a political resolution, which includes a 
transition away from Assad.


    Question.  As Ambassador Samantha Power told the United Nations 
Security Council Sunday, ``The Assad regime believes only in a military 
solution. It says it is going to conquer militarily every last square 
inch of Syria.'' And ``Instead of pursuing peace, Russia and Assad make 
war. Instead of helping get life-saving aid to civilians, Russia and 
Assad are bombing the humanitarian convoys, hospitals, and first 
responders who are trying desperately to keep people alive.'' Does this 
behavior indicate at all that Moscow or Damascus is interested in 
pursuing a political transition in Syria? How would you rate the 
prospects of achieving any durable ceasefire agreement in the near 
future, in light of recent events?

    Answer. We are alarmed by the devastation inflicted on Syrian 
civilians, most recently in Aleppo, at the hands of the Syrian regime 
and its allies. We regret that Damascus has not signaled a serious 
intent to engage in talks aimed at a political settlement to the Syrian 
conflict. We remain committed to pursuing a durable resolution to the 
conflict, including an enduring cessation of hostilities by the Syrian 
regime and its allies.
    We know from history and experience that civil wars end in one of 
three ways. First, one side wins. That is unlikely in Syria because as 
soon as one side gets the advantage, the outside patrons of the other 
side intensify their engagement to right the balance.
    Second, the parties exhaust themselves. Typically, that takes a 
decade or longer when a multiplicity of actors are involved. The civil 
war in Syria is entering year six, and it features a broad array of 
internal and external actors with different priorities.
    Third and finally, civil wars end when external powers intervene 
either militarily or politically. But military intervention typically 
adds fuel to the fire, extending before ending the conflict and 
suffering. In the case of Syria, short of a wholesale invasion that no 
outside power has the interest to undertake, military intervention is 
not likely to be decisive. That leaves a political intervention, with 
key outside powers and patrons shaping, supporting and imposing a 
resolution. That is the effort we have been engaged in with Russia and 
other members of the International Syria Support Group (ISSG), building 
on the foundation of the Geneva communiques and U.N. Security Council 
resolutions.


    Question.  State Department spokesman Mark Toner said this week 
that the ``diplomatic process is still the best option we have.'' In 
light of Secretary Kerry's statement Monday that ``the Assad regime 
statements are almost meaningless at this point in time,'' upon what 
basis can the administration hope that it can negotiate Assad, Russia 
or Iran into limiting their slaughter of the Syrian people?

    Answer. The Assad regime continues to prove that it is not a 
legitimate representative of the Syrian people, and its statements are 
almost meaningless at this point. Nevertheless, the diplomatic process 
known as the International Syria Support Group (ISSG) currently remains 
the best option for reducing violence and helping create conditions for 
U.N.-led intra-Syria talks on a political solution to move forward. 
Since the causes of the Syrian war can only be addressed through a 
political solution, even if we augment our efforts with elements of 
other options, we and our partners must continue undertaking some form 
of diplomacy along the lines of the ISSG process in pursuit of the 
goals elaborated in U.N. Security Council Resolution 2254.


    Question.  Would you agree that Russia was responsible for the 
September 19 attack on the humanitarian aid convoy and that this attack 
was deliberate? What evidence can you provide this committee to 
corroborate that?

    Answer. The regime was almost certainly aware of the convoy's 
route, since Syrian authorities had signed facilitation letters at the 
urging of the International Syria Support Group (ISSG)'s Humanitarian 
Access Task Force, which includes Russia. As co-chair of the ISSG 
Ceasefire Task Force, Russia bears at least indirect responsibility for 
failing to prevent the regime's attack on the convoy.


    Question.  The Daily Beast reported earlier this week that the U.S. 
special envoy to Syria Michael Ratney was warned that the Assad regime 
was planning to attack the Aleppo facilities of the Syrian Civil 
Defense.


  <diamond> Do you deny that the U.S. was warned of the pending Assad 
        regime attack?

  <diamond> If you knew about the attack beforehand, why did we stand 
        by to allow the Assad regime to attack?

    Answer. The September 23 attacks on the Syrian Civil Defense 
(``White Helmets'') positions were an especially egregious example of 
the kind of barbarity the Assad regime has displayed over the past five 
years of war. There can be no excuse for bombing facilities and 
supplies used to help the victims of violence. No one in the U.S. 
government, including Special Envoy Michael Ratney, received any 
warning specific to the attack on the White Helmets.


    Question.  The New York Times reported last week that ``The Obama 
administration is weighing a military plan to directly arm Syrian 
Kurdish fighters combating the Islamic State, a major policy shift that 
could speed up the offensive against the terrorist group but also 
sharply escalate tensions between Turkey and the United States.''


  <diamond> Can you confirm that the administration is indeed 
        considering providing Kurdish forces with small arms and other 
        equipment?

  <diamond> How will providing these arms enable the Kurdish forces to 
        advance against the Islamic State?

  <diamond> Why is the administration using the Syrian Democratic 
        Forces as its primary proxy group in the conflict? Can you 
        estimate the breakdown of ethnic groups within the alliance?

  <diamond> Does the administration believe that the alliance can hold 
        territory that is liberated from ISIS? In light of the Syrian 
        Democratic Forces' strong Kurdish element, do you believe it is 
        wise to use this force to continue to push into territory that 
        is traditionally not Kurdish and what is your assessment about 
        how they will be received by the local population?

  <diamond> How does the administration weigh the risks of further 
        exacerbating tensions with Ankara and reclaiming territory from 
        ISIS? Can you identify other groups in Syria at the moment that 
        the United States can support with equal measure?

    Answer. The Syrian Democratic Forces (SDF) is a multi-ethnic Syrian 
alliance comprising Kurdish, Arab, Turkmen, Assyrian, Christian, and 
Muslim groups united in their fight against Daesh. The SDF has been a 
proven and valuable partner in the counter-Daesh fight and has 
liberated 25 percent of the terrain Daesh once controlled in Syria in 
2014. We are now evaluating what role the SDF can play in the next 
phase of the counter-Daesh campaign in Syria.
    We have not, to date, provided U.S. ammunition or weapons to the 
Kurdish elements of the SDF under the program established by section 
1209 of the National Defense Authorization Act for Fiscal Year 2015. 
The Department of Defense has provided equipment to vetted Arab 
elements of the SDF under section 1209. This has been a valuable 
contribution to the counter-Daesh mission, as it supports a vetted 
force's efforts to secure the region from terrorist control.
    From the liberation of Kobani until the liberation of Manbij, the 
SDF's fighting force of Kurdish, Arab, Turkmen, Assyrian, Christian, 
and Muslim and other populations has been essential in recapturing 
significant territory from Daesh and in denying Daesh access to large 
portions of northern Syria. I cannot go into the specifics of the 
composition of the SDF.
    Despite mounting multiple SVBIEDs and counterattacks, Daesh has 
been unable to reclaim any territory lost to the SDF.A core principle 
of our counter-Daesh campaign in Iraq and Syria is that local forces 
should hold and secure terrain liberated from Daesh. We are applying 
this principle in Manbij, the city most recently liberated by the SDF, 
and we will seek to apply it in Raqqa.
    Most recently, the SDF force that liberated Manbij comprised 
Kurdish and Arab elements, including Arab groups from Manbij. When the 
SDF seized central Manbij on August 12, we saw widespread jubilation 
among the local population. Within a day of the city's liberation, 
thousands of IDPs began returning to the city, and 70,000 have returned 
to date. While challenges persist in Manbij, local forces are providing 
security, people are returning, and the local economy is regenerating. 
Daesh will seek to generate hostility among Raqqa's population against 
any counter-Daesh force advancing on the city. Counteracting and 
mitigating the threats caused by such Daesh propaganda campaigns is key 
component of our plan to liberate Raqqa.
    The United States remains focused on the counter-Daesh Coalition to 
degrade and defeat Daesh. An important part of this effort is denying 
Daesh access to Syria's border, to prevent attacks in Turkey, Europe, 
and against the Homeland. Turkey is a key partner in the counter-Daesh 
Coalition, and we will continue to work with Turkish officials to 
discuss our mutual goal of defeating Daesh and to coordinate our 
counter-Daesh campaign. Since August 24, the Coalition has made 
significant progress in driving Daesh off the border between Syria and 
Turkey. We are going to work with Turkey and our counter-Daesh 
coalition partners to focus on that fight ahead as we continue to 
isolate Raqqa. As we accelerate our campaign and move toward the next 
phase in the isolation of Raqqa, it is critical that we are closely 
linked with partners on the ground to coordinate both military and 
diplomatic efforts to sustain the positive momentum that has been 
gained in recent months. The coalition will work with all of our 
partners to achieve our common goal--the lasting defeat of Daesh.

                               __________

            Responses to Questions for the Record Submitted
             to Deputy Secretary Blinken by Senator Perdue


    Question.  The Wall Street Journal recently reported that Special 
Envoy Brett McGurk signed three documents in Geneva, Switzerland on 
January 17, 2016. One of these documents reportedly committed the U.S. 
to support the immediate sanctions delisting of two Iranian banks, Bank 
Sepah and Bank Sepah International, who were not to be delisted until 
2023. Both of these banks were designated by Treasury in 2007 for their 
role in backing Iran's missile program. The designation was silent on 
any role the banks played on Iran's nuclear program. How do you justify 
the delisting of Bank Sepah and Bank Sepah international, given the 
administration told us that the JCPOA sanctions relief would only be 
related to nuclear designations? Since Special Envoy McGurk works on 
the Counter-ISIL portfolio, why was he the one to sign these documents 
with Iran? Could you provide the three documents signed on January 17, 
2016 to me and my staff for review? Why were these three documents kept 
from Congress in the first place?

    Answer. The documents you request were provided to the Senate on 
September 9 and are available for review by you (and your staff holding 
appropriate security clearances) in the Office of Senate Security.
    By January 2016, the U.S. government had already made the 
determination that it would remove Bank Sepah from our domestic 
Specially Designated Nationals and Blocked Persons (SDN) list on 
Implementation Day--a decision that was outlined clearly in the Joint 
Comprehensive Plan of Action (JCPOA) itself in July 2015. We made this 
determination after a careful review of the activity of all individuals 
and entities--including Bank Sepah--that would be removed from the SDN 
list as part of the JCPOA.
    The United Nations Security Council decided to delist Bank Sepah in 
January--a public act that was reported at the time. It has long been 
U.S. practice to support delistings at the U.N. that match up, or 
synchronize, the U.S. and U.N. lists. Given the U.S. government's 
removal of Bank Sepah from our SDN list pursuant to the JCPOA, we were 
comfortable with its removal from the U.N. sanctions list as well. As 
we have said previously, we have the ability to quickly reimpose U.S. 
sanctions if Bank Sepah or any other entity engages in activities that 
remain sanctionable.
    Special Presidential Envoy McGurk served as Deputy Assistant 
Secretary of State for Iraq and Iran from August 2013 until November 
2015 and in that capacity was asked to lead the discussions with Iran 
regarding unjustly detained Americans in Iran. As the Deputy Special 
Presidential Envoy on the Counter-Daesh campaign, he retained his 
position as the Deputy Assistant Secretary for Iraq and Iran. When 
President Obama appointed Mr. McGurk as the Special Presidential Envoy 
in November 2015, he continued the sensitive talks with Iran regarding 
the unjustly detained Americans until they were released in January 
2016. He was also the senior U.S. official present in Geneva during the 
discussions in which a number of strands of diplomacy related to Iran 
were concluded with the Iranians.


    Question.  I have previously written to the State Department 
regarding the $1.7 billion in cash payments provided to Iran this year. 
Unfortunately, in the reply from the State Department several of my 
questions went unanswered. I will repeat them here, and appreciate your 
thorough and direct answers to these questions:

  <diamond> Why did the administration not disclose information about 
        this payment to Congress?

  <diamond> Upon making this payment, did you have any monitoring 
        systems in place for the end-use of this cash?

  <diamond> Did you receive any assurances from the Iranians that this 
        payment would not be used to fund terrorism, the Assad regime 
        in Syria, or other Iranian efforts to further sow instability 
        in the region?

  <diamond> Can you assure us that U.S. taxpayer dollars--specifically 
        the hard currency provided in the January 2016 shipment--have 
        not been used to fund terrorism?

    Answer. This issue of the January settlement of the Foreign 
Military Sales (FMS) Trust Fund claim at the Iran-U.S. Claims Tribunal 
was openly addressed in January 2016, including by the President and by 
Secretary Kerry, and the administration made multiple offers to brief 
Members at that time. One Member of Congress accepted the offer of a 
briefing, and it was provided in April.
    On September 6, we provided two closed briefings on this issue to 
House and Senate staff, and we have made every effort to answer 
questions that Members have asked. For both the payments to settle the 
dispute (one covering principal and the other covering the compromise 
on interest), no direct transfer was made from any U.S. account to 
Iran. The transactions that were made to effectuate the payments 
complied with U.S. sanctions laws and did not require a unique license, 
waiver, or any other form of authorization. The Department of the 
Treasury's Iranian Transactions and Sanctions Regulations explicitly 
authorizes ``[a]ll transactions necessary. to payments pursuant to 
settlement agreements entered into by the United States Government'' in 
a legal proceeding in which the U.S. is a party, which would include 
settlements of claims before the Tribunal.
    We have no information to indicate that the $1.7 billion went to 
the Islamic Revolutionary Guard Corps or was used to support terrorism. 
If we determine Iran has used any of its funds for purposes that are 
sanctionable, such as support for terrorism, we retain the ability to 
take aggressive steps to counter these activities using a range of 
tools--including with sanctions. Iran's ongoing economic difficulties 
make it hard to divert large portions of these settlement funds away 
from its domestic economy and toward its regional activities. We 
estimate that Iran needs about half a trillion dollars to meet pressing 
investment needs and government obligations and it is our assessment 
that Iran has used most of the funds it has gained access to since the 
JCPOA to address these domestic economic needs.


    Question.  In addition to the questions previously asked on the 
$1.7 billion in cash payments, I would appreciate clarification on why 
the administration deemed it necessary to make these payments in cash. 
Although President Obama stated on August 4 ``the reason that we had to 
give them cash is precisely because we are so strict in maintaining 
sanctions and we do not have a banking relationship with Iran that we 
couldn't send them a check and we could not wire the money,'' we now 
know that on at least two different occasions the administration wired 
money to Tehran (July 2015 for the settlement of a claim and April 2016 
for the payment for removal of excess heavy water). Why could the funds 
not be wired to Iran in January 2016, when wire payments were made last 
year?

    Answer. The July 2015 payment you are referring to was the result 
of an award from the Iran-U.S. Claims Tribunal at The Hague (``the 
Tribunal'') to Iran for less than $1 million. The award was paid via 
wire to an account of the Iranian Center for International Legal 
Affairs, or CILA, in the Netherlands. CILA is the Iranian office 
responsible for representing Iran before the Tribunal. No direct 
transfer was made from the U.S. to Iran. Iran asked us to wire the 
award payment to that account in the Netherlands, as CILA was able to 
absorb the funds for purposes of paying Iran's Tribunal and litigation 
expenses.
    As the President said, U.S. banks do not have direct banking 
relationships with Iran. Iran has encountered problems with a wide 
variety of payments prior to sanctions relief under the Joint 
Comprehensive Plan of Action (JCPOA) and, even after Implementation 
Day, prior to Iran's reconnection with SWIFT and some European banks. 
The payments in January 2016, which were made as part of a settlement 
of a long-standing claim before the Tribunal occurred before Iran 
reestablished these banking connections. The payments were structured 
to provide Iran access to the funds and to avoid the otherwise certain 
delay and immobilization of the funds prior to banking reconnections, 
which was essential to closing the settlement agreement and saving the 
U.S. taxpayer potentially billions of dollars.
    Regarding the heavy water payment, in the months following the 
lifting of sanctions under the JCPOA, Iran began to gain incremental 
access to the international financial system, which opened up more 
options for executing transactions, such as the heavy water transaction 
you referenced. Even this transaction took several months to complete, 
however.


    Question.  Secretary Kerry appeared before this committee in 
February and said ``Assad himself is going to have to make some real 
decisions about the formation of a transitional governance process 
that's real.'' If he did not meet this test of facilitating a political 
transition, we were told there would be ``Plan B options being 
considered.'' The administration did not enact a Plan B after the 
target date of August 1. Why did President Obama fail to enforce his 
own policy again? In light of the collapse of the truce, the attack on 
the U.N. aid convoy, and the ongoing siege of Aleppo, is the 
administration now conducting any discussions at all about finally 
enacting Plan B measures? If not, why would the administration give the 
Syrian people hope for 6 months that it would finally intervene on 
their behalf?

    Answer. Since the Secretary's appearance before the committee in 
February, there have been two more rounds of U.N.-led talks with Syrian 
opposition and regime negotiators in Geneva to explore ways forward for 
negotiations on Syrian political transition. On February 22, the United 
States and Russia announced the Cessation of Hostilities (CoH). In its 
initial months, our approach appeared to be working as the CoH 
significantly reduced violence and facilitated unprecedented 
humanitarian access inside Syria. As the August 1 target date 
approached, the United States and Russia were engaged in intensive 
negotiations of an arrangement that would have strengthened the CoH and 
thereby created conditions on the ground in Syria to allow Syrian 
opposition to return to a fourth round talks in Geneva by or soon after 
the August 1. Secretary Kerry concluded that arrangement with Russian 
Foreign Minister Lavrov on September 9 with the intention of garnering 
the endorsement of the International Syria Support Group (ISSG) at the 
ISSG ministerial on the margins of the U.N. General Assembly meeting on 
September 20. Unfortunately, Russia failed to meet its commitments 
under the CoH and the September 9 arrangement by, among other things, 
failing to prevent the September 19 attack on the U.N. convoy and other 
acts of regime aggression in Aleppo and elsewhere in Syria. The 
administration is now evaluating other options.


    Question.  What is the United States' overall strategy toward the 
Syria conflict?

    Answer. The United States' overall strategy toward the Syrian 
conflict aims to achieve three fundamental objectives: 1) defeat the 
Islamic State in Iraq and the Levant (ISIL), or Daesh; 2) promote 
Syria's peaceful democratic political transition away from the Assad 
regime; and 3) ease the suffering of the Syrian people. Accordingly, 
the United States initiated the diplomatic process known as the 
International Syria Support Group (ISSG) to reduce violence and help 
create conditions for U.N.-led intra-Syria talks on a political 
solution to move forward.
    Unfortunately, Russia thus far has not lived up to its commitments 
as a co-chair of the ISSG Ceasefire Task Force to pressure the Assad 
regime to abide by the terms of the Cessation of Hostilities (CoH) 
announced by the United States and Russia on February 22, 2016, or by 
those of the U.S.-Russia arrangement for strengthening the COH reached 
by Secretary Kerry and Russian Foreign Minister Lavrov in Geneva on 
September 9, 2016.
    Since the causes of the Syrian war can only be resolved through a 
political solution, even if we augment our efforts with elements of 
other options, we and our partners will continue to consult work 
together to put pressure on Russia and undertake diplomacy along the 
lines of the ISSG process in pursuit of the goals elaborated in U.N. 
Security Council Resolution 2254.


    Question.  Should Russia and Syria not come to the table, will the 
administration reconsider bolstering support for moderate opposition 
forces?

    Answer. Should Russia and Syria not be willing to comply with their 
commitments under U.N. Security Council Resolution 2254 and related 
resolutions, the administration will evaluate a wide range of options--
including various kinds of additional support to moderate opposition 
resisting the Assad regime to augment the non-lethal support we have 
provided to date. In evaluating these options, we must also consider 
the political-military implications for other U.S. interests inside 
Syria, including our campaign to defeat Daesh, as well as in 
neighboring countries and surrounding regions.


    Question.  What leverage do we have in Syria to make Russia change 
its calculus and considerations for supporting Assad? Could Russia have 
stopped Assad from intensifying the conflict, as he has done over the 
past few weeks?

    Answer. We are continually evaluating the types of leverage 
available to us to persuade Russia to press the Assad regime to comply 
with its commitments under U.N. Security Council Resolution 2254 and 
related resolutions--including various kinds of additional support to 
moderate opposition resisting the Assad regime to augment the non-
lethal support we have provided to date.
    On February 22, the United States and Russia announced the 
Cessation of Hostilities (CoH). In its initial months, our approach 
appeared to be working as the CoH significantly reduced violence and 
facilitated unprecedented humanitarian access inside Syria--seemingly 
in large measure due to Russia's influence over the regime. During 
August and September 2016, the United States and Russia were engaged in 
intensive negotiations of an arrangement that would have strengthened 
the CoH and proven the extent of Russia's ability and willingness to 
restrain the regime's military, especially its air force. Secretary 
Kerry concluded that arrangement with Russian Foreign Minister Lavrov 
on September 9 with the intention of garnering the endorsement of the 
International Syria Support Group (ISSG) at the ISSG ministerial on the 
margins of the U.N. General Assembly meeting on September 20. 
Unfortunately, Russia failed to meet its commitments under the CoH and 
the September 9 arrangement by failing to prevent the September 19 
attack on the U.N. convoy and other regime aggression in Aleppo and 
elsewhere in Syria. The administration is evaluating other options for 
leverage over Russia and the Assad regime. The cost of maintaining this 
war in support of Assad as well as its shaming by the international 
community is another deterrent to Russia for maintaining its 
destructive role in Syria. As time goes on, the costs will only 
increase for Russia.


    Question.  What leverage do we have to change the behavior of the 
Assad regime? Can we exert any additional pressure on the Syrian 
government? Is this administration willing to do so?

    Answer. We are continually evaluating the types of leverage 
available to us to press the Assad regime to comply with its 
commitments under U.N. Security Council Resolution 2254 and related 
resolutions--including various kinds of additional support to moderate 
opposition resisting the Assad regime to augment the non-lethal support 
we have provided to date. Besides support for the moderate opposition, 
we have sought to bolster our leverage on the regime through the 
International Syria Support Group (ISSG) process, which includes Russia 
and Iran and more than 20 other countries and entities with influence 
over the parties, to focus international pressure on the regime. While 
the administration willing to exert additional forms of pressure, we 
must also consider the political-military implications for other U.S. 
interests inside Syria, including our campaign to defeat Daesh, as well 
as in neighboring countries and surrounding regions.


    Question.  The New York Times reported last week that ``The Obama 
administration is weighing a military plan to directly arm Syrian 
Kurdish fighters combating the Islamic State, a major policy shift that 
could speed up the offensive against the terrorist group but also 
sharply escalate tensions between Turkey and the United States.'' Can 
you confirm that the administration is indeed considering providing 
Kurdish forces with small arms and other equipment? How will providing 
these arms enable the Kurdish forces to advance against the Islamic 
State?

    Answer. The Syrian Democratic Forces (SDF) is a multi-ethnic Syrian 
alliance comprising Kurdish, Arab, Turkmen, Assyrian, Christian, and 
Muslim groups united in their fight against Daesh. The SDF has been a 
proven and valuable partner in the counter-Daesh fight and has 
liberated 25 percent of the terrain Daesh once controlled in Syria in 
2014. We are now evaluating what role the SDF can play in the next 
phase of the counter-Daesh campaign in Syria.
    In his testimony during the week of September 19, Secretary Carter 
noted no decisions have been made to arm Syrian Kurds to conduct 
counter-Daesh operations. We have not, to date, provided U.S. 
ammunition or weapons to the Kurdish elements of the SDF under the 
program established by Section 1209 of the NDAA for Fiscal Year 2015. 
The Department of Defense has provided equipment to vetted Arab 
elements of the SDF under Section 1209. This has been a valuable 
contribution to the counter-Daesh mission, as it supports a vetted 
force's efforts to secure the region from terrorist control.


    Question.  Why is the administration using the Syrian Democratic 
Forces as its primary proxy group in the conflict? Can you estimate the 
breakdown of ethnic groups within the alliance? Does the administration 
believe that the alliance can hold territory that is liberated from 
ISIS? In light of the Syrian Democratic Forces' strong Kurdish element, 
do you believe it is wise to use this force to continue to push into 
territory that is traditionally not Kurdish?

    Answer. The Syrian Democratic Forces (SDF) have been a proven and 
valuable partner in the counter-Daesh fight; it a capable, resilient, 
and committed force and has liberated 25 percent of the terrain Daesh 
once controlled in Syria in 2014. From the liberation of Kobani until 
the liberation of Manbij, the SDF's fighting force of Kurdish, Arab, 
Turkmen, Assyrian, Christian, and Muslim and other populations have 
been essential in recapturing significant territory from Daesh and in 
denying Daesh access to large portions of northern Syria. I cannot go 
into the specifics of the composition of the SDF.
    Despite mounting multiple suicide vehicle-borne improvised 
explosive devices (SVBIEDs) and counterattacks, Daesh has been unable 
to reclaim any territory lost to the SDF.
    A core principle of our counter-Daesh campaign in Iraq and Syria is 
that local forces should hold and secure terrain liberated from Daesh. 
We are applying this principle in Manbij, the city most recently 
liberated by the SDF, and we will seek to apply it in Raqqa.
    Most recently, the SDF force that liberated Manbij comprised 
Kurdish and Arab elements, including Arab groups from Manbij. When the 
SDF seized central Manbij on August 12, we saw widespread jubilation 
among the local population. Within a day of the city's liberation, 
thousands of IDPs began returning to the city and 70,000 have returned 
to date. While challenges persist in Manbij, local forces are providing 
security, people are returning, and the local economy is regenerating. 
Daesh will seek to generate hostility among Raqqa's population against 
any counter-Daesh force advancing on the city. Counteracting and 
mitigating the threats caused by such Daesh propaganda campaigns is key 
component of our plan to liberate Raqqa.


    Question.  How does the administration weigh the risks of further 
exacerbating tensions with Ankara and reclaiming territory from ISIS? 
Can you identify other groups in Syria at the moment that the United 
States can support with equal measure?

    Answer. The United States remains focused on the counter-Daesh 
coalition to degrade and defeat Daesh. An important part of this effort 
is denying Daesh access to Syria's border, to prevent attacks in 
Turkey, Europe, and against the United States. Turkey is a key partner 
in the counter-Daesh coalition and we will continue to work with 
Turkish officials to advance our mutual goal of defeating Daesh and to 
coordinate our counter-Daesh campaign. Since August 24, the counter-
Daesh coalition has made significant progress in driving Daesh from the 
border between Syria and Turkey. Recently, President Obama had the 
chance to discuss with President Erdogan our support for Turkey as both 
a NATO ally and a key partner in the fight against Daesh . Still, there 
are several areas in northern Syria that are deeply important to Daesh. 
We are going to work with Turkey and our counter-Daesh coalition 
partners to focus on that fight ahead as we continue to isolate Raqqa. 
As we accelerate our campaign and move towards the next phase in the 
isolation of Raqqa, it is critical that we are closely linked with 
partners on the ground to coordinate both military and diplomatic 
efforts to sustain the positive momentum that has been gained in recent 
months. The coalition will work with all of our partners to achieve our 
common goal--the defeat of Daesh.
    Over the last few weeks, the counter-Daesh coalition has removed 
Daesh from the Syria and Turkey border. We view this effort as a 
critical aspect of our campaign to defeat Daesh and prevent attacks in 
Turkey, Europe, and the United States. Looking forward, there remain 
several areas near the border that must be liberated from Daesh 
control. To help achieve this objective and building on the air strikes 
we have provided thus far, U.S. special operations forces are 
accompanying Turkish and vetted Syrian opposition forces as they 
continue to clear territory from Daesh near the border. The United 
States will continue to support the counter-Daesh fight across northern 
Syria with our partners.


    Question.  As Ambassador Samantha Power told the UNSC on Sunday, 
``the Assad regime believes only in a military solution. It says it is 
going to conquer militarily every last square inch of Syria instead of 
pursuing peace, Russia and Assad make war.'' In light of Syria and 
Russia's behavior, is the administration considering a serious change 
to our policy towards how to end the conflict? Is a military solution 
being considered?

    Answer. We are alarmed by the devastation inflicted on Syrian 
civilians, most recently in Aleppo, at the hands of the Syrian regime 
and its allies. We regret that Damascus has not signaled a serious 
intent to engage in talks aimed at a political settlement to the Syrian 
conflict. We remain committed to pursuing a durable resolution to the 
conflict, including an enduring cessation of hostilities by the Syrian 
regime and its allies. Russia failed to uphold its commitments under 
U.N. Security Council resolutions, and potentially its obligations 
under international humanitarian law, to ensure Syrian regime adherence 
to the arrangements to which Moscow agreed. We continue to press for a 
resolution to the Syrian conflict, including through the International 
Syria Support Group (ISSG).


    Question.  As you're aware, in June, 51 State Department officials 
submitted a memo through the Department's ``dissent channel'' in which 
they called for the U.S. to carry out military strikes against the 
Assad regime in order to stop its ceasefire violations. They wrote that 
if the Obama administration continued to allow the Assad government and 
its backers attack Syrian civilians with impunity, the situation in 
Syria will ``continue to present increasingly dire, if not disastrous, 
humanitarian, diplomatic, and terrorism-related challenges.'' Do you 
agree with these diplomats within your Department that the failure of 
the administration's efforts has indeed allowed the situation in Syria 
to deteriorate, leading to the consequences they warned of?

    Answer. These are extremely tough issues: How to get a successful, 
cessation of hostilities; how to ensure full, unimpeded humanitarian 
access to all Syrians in need; and how to bring about a genuine 
political transition in accordance with the Geneva Communique. We are 
also working all-day, every day to defeat Daesh in Syria, Iraq and 
elsewhere. We have regular, frank discussions about how best to go 
about it. We are very focused on reducing the violence and providing 
humanitarian assistance to the still millions of Syrians in need.
    We do not believe there is a military solution to this conflict, so 
we are working to bring about a political solution, which includes a 
transition away from Assad.


    Question.  Is the administration willing to consider humanitarian 
no-fly zones to help stop the loss of life in Syria? If so, how would 
you plan to enforce it? If not, why?

    Answer. Let me assure you that the entire administration is 
constantly evaluating the pros and cons of new strategies and policies 
with regards to Syria. We look for new strategies that will help us 
come to a political transition in Syria, but we also want to make sure 
that any new potential benefits outweigh any risks for the American 
people, particularly American lives.
    I know there is deep interest in a no-fly zone and we have examined 
this issue and we will continue to do so, but, at this time, we do not 
believe the potential benefit outweighs the great risk and the 
resources constraints and tradeoffs involved. Any kind of zone would 
require dozens of American pilots and would be a huge strain on 
resources.
    No-fly, buffer, or safe zones entail significant logistical 
questions about where such zones would be, how they would be protected 
on the ground, and what resources would be needed to ensure that we 
could achieve our intended objective. At this moment, we do not believe 
that the creation of a no-fly zone would be successful or promote a 
resolution of the crisis in Syria.


    Question.  Since the nuclear agreement, Iran has dramatically 
expanded its presence in Syria and increased its military cooperation 
with Moscow, including at one point, even allowing Russian planes to 
use air bases in Iran. Do you view this as a violation of UNSCR 2231? 
If so, what actions are being taken to punish Iran and Russia for this 
violation?

    Answer. U.N. Security Council Resolution (UNSCR) 2231 prohibits the 
``supply, sale, or transfer to Iran, or for the use in or the benefit 
of Iran'' of certain conventional arms, including combat aircraft, 
absent U.N. Security Council approval. We continue to call on all 
Member States to fully implement UNSCR 2231, including its provisions 
regarding arms transfers to Iran.
    Russian refueling on Iranian territory raises concerns regarding 
its compliance with this provision. We are looking at this very 
carefully and we continue to gather information regarding these events. 
However, our most urgent concern with regard to Russia's actions in 
Syria is its ongoing support to the Syrian Regime and their offensive 
actions, particularly in Aleppo, which have been devastating to the 
Syrian people, and which have led us to suspend U.S. participation in 
bilateral channels that were established to sustain the Cessation of 
Hostilities.


    Question.  Would you agree that Iranian aid has enabled the Syrian 
regime to prolong the war? Can you affirm that Iran has not used any of 
the money it received under the JCPOA to finance its military and 
economic support for the Assad regime?

    Answer. Nuclear-related sanctions were always intended to secure a 
verifiable deal that prevents Iran from obtaining a nuclear weapon. An 
Iran armed with a nuclear weapon would be able to project even more 
power in the region--that is one of the reasons a comprehensive, long-
term deal that prevents Iran from acquiring a nuclear weapon makes the 
United States and the region safer. As a result of many years of U.S. 
and international sanctions, even after the lifting of nuclear-related 
sanctions, it is our assessment that Iran continues to prioritize its 
immediate economic and budgetary needs.
    Iran's ongoing economic difficulties make it harder to divert large 
portions of its financial gains from sanctions relief away from its 
domestic economy and toward its regional activities. We estimate that 
Iran needs about half a trillion dollars to meet pressing investment 
needs and government obligations and it is our assessment that Iran has 
used most of the funds it has gained access to since the JCPOA to 
address these domestic economic needs.


    Question.  What more can we do to punish Iran for their involvement 
in the Syrian conflict? Are more options being pursued now to do so?

    Answer. The President has asked all of the federal agencies to put 
forward options for how to respond to recent developments in Syria. 
Some of the options are familiar, some are new; we are very actively 
reviewing the options.
    Regarding Iranian activity, we continue to work extensively with 
our partners to deter and detect Iranian threats in the region. We also 
have numerous domestic authorities--including sanctions--to counter 
Iran's support for terrorism or other destabilizing activities. We will 
continue to vigorously enforce our ongoing sanctions, including those 
related to Iran's support for terrorism, destabilizing activities in 
the region, ballistic missile development, and human rights abuses.


    Question.  Can you speak to what our Gulf allies are doing to 
assist in dealing with the refugee crisis created by the civil war in 
Syria and ISIS violence? What is this administration doing to encourage 
nations like the UAE, Saudi Arabia, or others to shoulder a greater 
burden with refugees or foreign aid?

    Answer. Throughout the Syrian crisis, we have actively engaged our 
partners in the region--including those participating in the counter-
Daesh coalition and International Syria Support Group (ISSG)--to 
request aid for Syrian refugees and other humanitarian assistance. The 
Kingdom of Saudi Arabia announced it has provided $100 million for 
Syrian refugees, raising its total aid to $780 million since 2011. The 
United Arab Emirates announced at the Fourth Donors Conference for 
Syria on February 4, 2016 that it would contribute $137 million. Qatar 
announced a $100 million, five-year education initiative for Syrian 
refugee children at the U.N. General Assembly last month and also 
announced that their total contribution to Syrian refugee relief 
totaled up to $1.6 billion. We will continue to request all of our 
counter-Daesh and ISSG partners jointly care for the suffering of the 
Syrian people.

                                  <all>
</pre></body></html>
